<html>
<title> - HOLES IN THE NET: SECURITY RISKS AND THE E-CONSUMER</title>
<body><pre>[Senate Hearing 107-674]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-674

                           HOLES IN THE NET: 
                   SECURITY RISKS AND THE E-CONSUMER

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



81-757              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 16, 2001....................................     1
Statement of Senator Nelson......................................    36
Statement of Senator Wyden.......................................     1

                               Witnesses

Cerf, Dr. Vinton G., Senior Vice President, Internet Architecture 
  & Technology, WorldCom.........................................     3
    Prepared statement...........................................     6
Miller, Harris N., President, Information Technology Association 
  of America.....................................................    10
    Prepared statement...........................................    13
Schneier, Bruce, Chief Technical Officer, Counterpane Internet 
  Security, Inc..................................................    20
    Prepared statement...........................................    23

                                Appendix

McCurdy, Dave, President, Electronic Industries Alliance.........    49
Article from Newsweek Business Information, Inc., Newsbytes, by 
  Brian McWilliams...............................................    52

 
                           HOLES IN THE NET: 
                   SECURITY RISKS AND THE E-CONSUMER

                              ----------                              


                         MONDAY, JULY 16, 2001

                                       U.S. Senate,
            Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:05 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee will come to order. I last 
chaired a congressional subcommittee in the early 1990's, when 
the Internet was not part of anyone's jurisdiction in the U.S. 
Congress. Given how dominant the Internet is today in our 
lives, I think it is appropriate to begin by just looking back 
for a couple of minutes.
    Not very long ago, the Senate Committee on Commerce, 
Science, and Transportation had a very different purview. 
Commerce in the United States largely involved the physical 
movement of goods. This Committee was charged with writing the 
ground rules for an economy where millions of workers--most of 
them men, by the way--got up at the crack of dawn, ate 
thousands of calories for breakfast, and then moved those goods 
physically from one point to another.
    Today, commerce in the United States has changed, and there 
is an increasing role for the movement of ideas and goods 
through packets of light. I feel very strongly that it makes no 
sense to try and shoe-horn the new challenges of a technology-
driven economy into rules and policies written for another day. 
Therefore, a special priority of this Subcommittee will be to 
examine fresh, creative ideas for a world driven by information 
technology.
    The purpose of today's hearing is to examine how the 
Internet has changed since its inception, and to look at the 
security risks and vulnerabilities that have developed along 
with the rise of e-commerce. All America is reading the 
newspaper about occasional virus attacks, computer glitches, 
and hacker mischief, but today this Subcommittee is fortunate 
to have three excellent witnesses who can look beyond 
individual incidents and help provide some long-term 
perspective.
    Specifically, we will examine what risks are introduced as 
Americans move more and more critical business functions onto 
the Internet, and what can be done to minimize those risks. The 
Internet is certainly not risk-free, but this Subcommittee will 
show that there are practical steps the public can take to make 
the open house of the Internet a safer house and not a house of 
cards.
    Things have changed since the inception of the Net. 
Worldwide Web has evolved from a platform for researchers 
sharing information, to an entertaining and useful vehicle for 
surfing the Web, to a core medium for American commerce. 
Hacking is no longer a joke, a mischievous prank that teenagers 
pull for fun. Where e-commerce is concerned, sabotage might be 
a better term.
    As we explore this issue today, there are several elements 
that I would like to emphasize. First, the Senate should keep 
its eye on the principal challenge before the Congress, 
overcoming obstacles to electronic commerce. That is what I 
have tried to do with the Internet Tax Freedom Act, the Digital 
Signatures law, and the Y2K liability law. I see reducing risk 
for the e-consumer as continuing the effort to overcome the 
obstacles to e-commerce.
    Second, the job is not going to get done by taking an 
ostrich approach to security issues by sticking our heads in 
the sand and pretending that there are simply no risks. I 
believe that when consumers and businesses understand fully 
what those risks are and how to minimize them, they will shift 
more business functions to the Net, and that is what this 
Subcommittee hopes to promote.
    It is important to do this now, because our lives are 
increasingly intertwined with the Net. Our mobile phones 
connect us; our personal digital assistants connect us; and our 
home appliances may soon be connected to order new groceries or 
detergent. With this growth, there is going to be an increase 
in the array of attacks against the Net. Even now, there is 
something of a sort of hacker hierarchy, allowing two very 
different kinds of people to damage e-commerce.
    Most problems originate with a small minority of people who 
are certainly not technological simpletons, but their work is 
now available Internet-wide. Programs today are sophisticated 
enough to provide a hacking how-to for folks who cannot manage 
it alone.
    There are a number of ways the Government can buttress e-
commerce security efforts in the private sector. Law 
enforcement officials can provide the tools to track down 
attackers and the consequences that will discourage them. Since 
people, not programs, will be ultimately responsible for making 
the Internet more secure, the Government can encourage 
education and support research and development of security 
services. The government can also facilitate information-
sharing that might not otherwise occur in the private sector, 
fostering discussions to identify the best practices that might 
better serve the public Internet-wide.
    The New York Times, for example, recently reported that 
companies providing Internet security are still booming, 
despite an overall slow-down in the high tech sector. I hope 
our witnesses today will be able to tell us what risks exist, 
what precautions we can realistically achieve, and how business 
and consumers can best meet the security challenges of e-
commerce.
    We have got a first-rate panel here today. I want to thank 
all three of you for allowing me, as the new Chairman of this 
Subcommittee, to begin with such valuable testimony.
    Dr. Vinton Cerf is our first witness. He is the Senior Vice 
President for Internet Architecture and Technology at WorldCom, 
and is often described as the ``father of the Internet.'' Mr. 
Harris Miller is President of the Information Technology 
Association of America, a trade association representing the 
broad information technology industry.
    Finally, Mr. Bruce Schneier is Chief Technology Officer of 
Counterpane Internet Security, and the author of Secrets and 
Lies: Digital Security in a New World. I want to note for the 
record, Mr. Schneier comes directly from Las Vegas, where he 
was at the DEFCON meeting which I saw you described in one of 
the online services this morning as sort of a cross between a 
Startrek convention and a Ramones concert.
    [Laughter.]
    Senator Wyden. I thought that was certainly an apt and 
colorful way to describe it.
    Gentlemen, we welcome all of you. We are going to make your 
prepared remarks a part of the record in their entirety. Dr. 
Cerf, why don't you begin.

         STATEMENT OF DR. VINTON G. CERF, SENIOR VICE 
    PRESIDENT, INTERNET ARCHITECTURE & TECHNOLOGY, WORLDCOM

    Dr. Cerf. Thank you very much, Mr. Chairman, and may I say 
that that was a remarkable summary of the problem at hand in 
such a short period of time. Plainly, you have taken the reins 
of this Subcommittee and you are on your way.
    I would like to first thank you for inviting me to 
participate in these hearings today. I think it would be 
helpful to begin by reminding everyone that the Internet's 
origins now nearly 30 years ago were academic and research-
oriented in nature. Although the work was funded by the Defense 
Department, almost all the work actually went on in an academic 
setting.
    The network itself was not for commercial use at all until 
about 1990. Now, I have to say with some mixed feeling that in 
fact there was a DARPA-sponsored classified design for a fully 
secured network for military use that was begun in 1975, and 
that was a classified effort, and I was never allowed to 
release any of the results of that work to the academics who 
were participating in the public version of the Internet, so 
today we find ourselves struggling with some network security 
problems that might have been solved a few decades ago, if only 
we could have released the information. Plainly, at the time, 
that would have been inappropriate, so we just have to deal 
with the alligator that faces us now.
    Commercialization of the Net did not happen until 1989, 
when the Federal Government gave permission for the use of the 
NSF Net backbone for commercial activity, and released, or at 
least made less restricted the appropriate use policies for 
that system. That quickly led to commercial Internet services 
in the form of Internet service providers, one of which is 
UUNet, which is a company now integrated into WorldCom. The 
other is PSINet. Those were the two first commercial services 
in the United States.
    The worldwide Web arrives technically in 1989, but visibly 
only in 1994, and it shows up in the public view in the form of 
Netscape Communications, and then later, of course, software 
from Microsoft and others, so the general public did not see 
Internet as part of its visible universe until 1994, which is 
now only 7 years ago.
    The intensity of commercial use has been rising since that 
time, and in particular, many, many of the commercial 
applications arose in the context of the worldwide Web. Today's 
network has about 500 million users. That is a small number 
relative to the world's population of 6 billion, but it is 
still a fairly large population of users.
    There are about 150 million computers on the Net acting as 
servers, and an additional 300 million or so personal computers 
or other Internet-enabled devices, personal digital assistants, 
and now even cell phones, so it is a fairly large universe of 
users and servers in the system.
    For purposes of this discussion, I would like to split the 
Net into three parts, a backbone, a host component, and a 
client component. The backbone is the system that the Internet 
service providers operate. It is the communications portion of 
the Net. The hosts are the things that supply services. That is 
where the applications run, and the clients are the personal 
computers, personal digital assistants and the like, that the 
users operate.
    The risks of using the Net fall into those three different 
categories. I would also note that in spite of any deliberate 
attacks and others things, that Murphy's Law is still very much 
at work. We are all capable of shooting ourselves in the foot, 
and we seem to do it regularly, without the help of hackers.
    Let us talk about backbone threats. One of the most visible 
is what is called the denial of services threat. It is 
something that simply overwhelms the target with too much 
traffic. There is a particularly fancy version of it called 
distributed denial of service attack, which means that the 
attackers are scattered over hundreds of thousands of machines, 
and it is very hard to isolate any one of them as the source of 
the attack.
    There are also attacks--those, by the way, are launched 
typically against the host computers. There are also attacks 
against the core of the Net, the routers and the other elements 
that actually move packets back and forth, so that the Internet 
service providers have to protect against that by one means or 
another.
    Threats against the host and the Net often go against the 
operating system vulnerabilities. The operating system of a 
machine, or of a Web server, is what essentially keeps it 
running, but there are all kinds of attacks that are possible, 
because there are all of these bugs in the software that create 
vulnerabilities and, of course, smart people find them.
    There are even attacks against passwords. Unfortunately, we 
use what are called reusable passwords to a greater degree than 
we should. That means that it is the same password. Every time 
you put a user name in, you put a password in, and since it is 
the same one every time, it is often possible to mount what are 
called dictionary attacks against people's passwords, even if 
they are encrypted by what is called a one-way encryption 
function, and kept on the host computer.
    It is possible to encrypt all the words in the dictionary 
and compare, if you get your hands on it, with the one-way 
encrypted password files, and if you find a match, then you 
just check to see which word in the dictionary that matched, 
and that might be the password, so unfortunately, reusable 
passwords are a bad habit.
    To make things worse, people pick really bad passwords. 
They pick their birth dates, and their wives' mothers' names, 
or their past names, things like that, things that other people 
might know, and might be able to guess, so we have some 
training to do of users.
    Then there are Trojan horses. These are pieces of software 
that can be injected into a host computer or another computer 
and run in the background to do bad things to you later on.
    Probably the most visible threats, though, that show up are 
threats against personal computers themselves. These are 
software attacks, and you hear words like viruses, and worms, 
and things of that sort. These are codes that are carried into 
your computer, sometimes by electronic mail attachments, and 
they do all kinds of damage, the I love you virus being one of 
the most visible, and possibly one of the most expensive ones.
    We are faced with more risks as we put more and more people 
on line on a permanent basis. Instead of dialing into the 
network, which is what 80 percent of the users do today, people 
get on the Net on a permanent basis with digital subscriber 
loop technology, or cable modems, but that means their machines 
are exposed 24 hours a day while they are online, and most of 
the personal computers of the world were not designed to 
withstand the sorts of attacks that can be mounted against 
permanent hosts on the network, and so that is yet another 
source of vulnerability.
    There are other risks that consumers face, and I am just 
going to mention a few, because I am now over time, and I 
appreciate the Chairman's indulgence.
    Senator Wyden. Go right ahead.
    Dr. Cerf. Some people imagine that e-mail is private, and 
that once you have thrown it away it will not ever appear 
again. Well, it turns out that in order to provide good-quality 
service, often the e-mail service providers back things up for 
you.
    I had a little incident a few months ago where some 
messages from two years ago were sitting in an old computer 
that woke up one day and realized that none of those messages 
which had been stored away as a backup had been delivered, and 
it panicked about this, and sent notes out to everyone who sent 
those messages to me saying this message has not been delivered 
in two years, there must be something wrong, and of course I 
got an avalanche of messages from my friends saying, I am 
getting messages I sent to you two years ago back from this 
machine, and why are you doing this.
    Of course, I had no idea what was going on, so if anyone 
believes that e-mail is private, please take note, it may not 
be.
    There are other risks. Identity theft is common and 
increasing, and the network is used in part of that. Credit 
card theft, even fraudulent storefronts that put up what look 
to be businesses, but are simply in the business of capturing 
your credit card for purposes of abusing it later.
    What about public access to Government records? Is that a 
risk? Well, it could be, if lots of details about your house 
and the design of it and all the other details that may be your 
transactions with the system of justice, all of which are 
public records, but in the past they have not been easily 
obtained, and now they are online, and that could be an issue.
    And then there is cyber-stalking, just to name another 
thing, where people are tracked through the network e-mail is 
sent to them, harassing them.
    Other kinds of activities could potentially be conducted 
through the network, and constitute yet another consumer risk. 
You are going to hear from my colleagues in a moment. Bruce is 
going to tell you that eternal vigilance is the price of 
security on the Net. You cannot secure the network once and 
have it be locked up. You have to keep checking over and over 
again to make sure it is still buttoned up, and what Mr. Miller 
is going to tell us among other things is that industry 
cooperation is critical for network security to be achieved by 
the industry. We cannot do this each individually by ourselves.
    And of course, Mr. Chairman, you are wondering what on 
earth can the Congress do about this. Well, one thing that you 
should not do is pass legislation that cannot be enforced, and 
so if it is technically impossible to enforce a piece of 
legislation, it leads to all kinds of side-effects, one of 
which is people ignore the law, and I think ignoring the law is 
a very bad precedent to set, so one wants legislation which is 
enforceable.
    Possibly the most valuable things you can do in the near 
term would be to pass laws, if necessary, to help us prosecute 
offenders to make sure that those who are apprehended and do 
such damage can, in fact, be successfully prosecuted and 
punished.
    There is a balance here which I think is difficult for you, 
and that is to figure out how to create those laws, while at 
the same time protecting the rights of personal privacy, and 
that balance is not easy. One could imagine building a very 
secure network environment by simply observing everything 
everyone does, and anything that looks even the slightest bit 
improper could be captured, recorded, and analyzed.
    I would not be a strong proponent of such an approach, but 
it is plain that that balancing act lies squarely in the hands 
of the members of this Subcommittee and the Members of 
Congress.
    Well, let me stop there, Mr. Chairman. I appreciate your 
allowing me to go on at length. I think you will find the 
comments of my colleagues to be most enlightening.
    [The prepared statement of Dr. Cerf follows:]

   Prepared Statement of Dr. Vinton G. Cerf, Senior Vice President, 
              Internet Architecture & Technology, WorldCom
Introduction
    As a historical matter, the Internet and its predecessor systems 
were developed in a largely academic environment focused on research, 
information and resource sharing and a general atmosphere of 
cooperative enterprise. For over twenty years, from 1969 to 1990, the 
Internet research program and user population benefited from this 
academic setting. However, by 1990, the environment began to change. 
For one thing, Internet services were just beginning to be made 
available on a commercial basis. As the cross section of users changed 
from its academic and military origins to encompass the business sector 
and the general public, a far broader range of behaviors were manifest 
in the Internet world. Various kinds of vandalism and other deliberate 
attacks increased in incidence.
    If not daily, then more often than one would like, one reads 
reports about a variety of network vulnerabilities, hacker attacks, 
unintended information releases and other frailties on the Internet. 
For the most part, these problems center on the computers that serve 
users on the Internet, but a good number also reflect vulnerabilities 
of the network itself. The network vulnerabilities are a primary 
concern for the Internet Service Providers who have responsibility for 
keeping the Internet in operation 24 hours per day, 365 days per year. 
It is also worth observing that many of the operational problems 
arising on the Internet have little to do with deliberate attacks. 
Rather, these problems arise simply from the complexity of the system, 
the proclivity of Murphy's Law to take effect at any moment,\1\ bugs in 
the software, human errors and things that simply break down. While 
network-related problems are a consumer concern, to the extent that 
they interfere with access and use of Internet services, the more 
critical concerns revolve around the serving computers (so-called 
Internet hosts) through which all online services are implemented, the 
client computers (desktops, lap-tops, personal digital assistants, 
internet-enabled cellular phones, and so on) and the policies of 
companies that provide services through the Internet. I will 
concentrate my testimony, therefore, on the end-points of the Internet: 
hosts, client devices and the companies that provide Internet-based 
services.
---------------------------------------------------------------------------
    \1\ Murphy's Law reads, ``If anything can possibly go wrong, it 
will.'' A corollary suggests that Murphy was an optimist!
---------------------------------------------------------------------------
    Consumers are particularly vulnerable to weaknesses in application 
software. Email can carry attachments that harbor so-called ``viruses'' 
that can ``infect'' the rest of the software in the user's computer. 
Web pages can deliver software that is interpreted by the user's 
browser and may cause damage to the user's information or interfere 
with proper operation of the user's computer. This topic is explored in 
more detail later in this paper.

Host Vulnerabilities
    Among the most visible of the consumer-affecting problems are 
denial-of-service attacks aimed at interfering with the normal 
operation of one or more servers on the Net. These attacks are 
sometimes very hard to distinguish from legitimate overloads, such as 
the famous Victoria's Secret Lingerie webcast that drew a reported 1.5 
million viewers whose attempts to download streaming video completely 
outstripped the server's ability to deliver traffic. The server simply 
could not respond to all the user requests for data. Such problems are 
analogous to overloaded emergency service centers that cannot accept 
all the telephone calls made during a crisis.
    If the overload comes from a single source or a small number of 
sources, ISPs sometimes can track down the source and filter out the 
offending packets as they enter the network. However, hackers have 
developed distributed denial-of-service (DDOS) attack tools that 
harness tens to hundreds of thousands of computers in the Internet. 
Each of these may send only a small amount of traffic but the aggregate 
may overwhelm the target. Such attacks are much harder to defend 
against and to track down. A principal reason that such distributed 
attacks are even possible is that many hosts on the Internet are 
unprotected from break-ins and become unwitting ``hosts'' for so-called 
``Trojan horse'' software that can be activated remotely and used to 
originate traffic towards the target. The irony of this situation is 
that the unprotected hosts often contain no information or provide no 
services that are considered critical in nature. They might be serving 
computers and workstations in an academic setting. They might even be 
laptops or desktops that are connected to the Internet by dedicated 
links (such as Digital Subscriber Loops or cable modems). If these 
platforms can be found by methodical probing of the Net, they may be 
subsequently ``infected'' with ``zombie'' software that can later be 
used in a DDOS attack. But because these computers might not be thought 
to contain critical or valuable information, they may not be as 
protected from invasion as they might otherwise be.
    These vulnerable resources may not be configured by their operators 
to be resistant to the exploitation of vulnerabilities. The systems may 
be operating with ``default'' passwords that come with the 
manufacturer's ``standard'' configuration--such passwords are widely 
known (especially among the hacking crowd) and should be changed by the 
operator before going online. Desktop machines (and operating systems) 
that were designed to be used mostly as client computers, may become 
more vulnerable when they participate in so-called ``peer-to-peer'' 
operations. Examples of such applications include Instant Messaging, 
file transfer services, Internet telephony and so on, in which the 
computer behaves both as a client and as a server.
    Apart from a variety of denial-of-service risks associated with 
host machines on the Net, e-consumers run a variety of risks of 
information compromise in which data they consider private could be 
exposed to unauthorized view. The least technical and most common 
avenue for such exposure is a consequence of corporate policies that 
simply do not protect consumer privacy. User names, addresses, 
telephone and fax numbers, email identifiers, account numbers, social 
security numbers, credit card numbers and any of a variety of other 
data might well be released, deliberately, by a corporation that does 
not have a consumer privacy protection practice and chooses to share 
this information for business purposes. The same data might be released 
unintentionally by the operator of a host who has failed to protect an 
online system from exploitation.
    One of the more ironic scenarios occurs when the user's client 
computer establishes an encrypted channel over the Internet to a server 
machine, transmits private information to that machine, and the 
information, so carefully protected while in transit, is exposed to 
unauthorized parties either by business practice or by negligence in 
configuring the server from invasive attack.

Rip Van Wrinkle
    Consumers are sometimes surprised by the unexpected consequences of 
well-intended service features. For example, a few months ago, I 
suddenly received a barrage of messages from my email correspondents 
who reported that a batch of messages they had sent me nearly two years 
ago had suddenly emerged on the Internet accompanied by rejection 
notices saying that these messages had not been delivered. A back-up 
email server had received and recorded these messages and awakened from 
its slumbers (for reasons never quite clear) to realize that from its 
perspective, this cache of messages had not been delivered in two 
years. The machine dutifully set out to notify every sender of this 
fact and included a copy of the ``undelivered'' message.
    More generally, email services often make backup copies of the 
email so as to recover from a catastrophic failure of a primary server. 
From time to time, email users are surprised to discover that email 
they thought they had long since deleted has been retained in backup 
files and has been released by accident or has become discoverable in a 
legal proceeding or is accessible under appropriate warrants. This is 
perhaps a specific case of the more general case of record keeping, 
such as is done in the consumer telecommunications service industry. 
Detailed billing records of calls (telephone number called, originating 
telephone number, date and time of day of call) are often kept for 
periods ranging from three months to a year to resolve subsequent 
disputes. Anyone who uses a major credit card that provides a report 
annually on their use can confirm that the credit card industry knows a 
great deal about specific consumer activities in the form of detailed 
transaction records.

Passwords
    One of the more serious consumer risks arises in the use of access-
controlled services requiring user authentication. The most common 
method of authentication is to associate a ``password'' with a user 
identifier (ID). These passwords are often fixed and reused repeatedly. 
Users are notorious for the poor choices of passwords and their 
unwillingness to change them regularly. Passwords can often be guessed 
(birthdate, pet's name, spouse's name, the current year, anniversary 
date, social security number, telephone number, address). Password 
files at the service hosts are usually one-way encrypted \2\ but if a 
hacker can get a copy of the encrypted password file it is possible to 
run a ``reverse dictionary attack'' to try to find the password. In a 
reverse dictionary attack, all the words in the dictionary are 
encrypted and then compared with each of the encrypted passwords taken 
from the target computer. A match exposes the password. Such tools are 
very commonly available. Good password practices dictate at the least 
that reusable passwords be changed regularly, contain more than just 
alphabetic characters, be 6-10 characters long and not contain common 
words found in the dictionary. An example of such a password is 
``SOLIPIKU98.''
---------------------------------------------------------------------------
    \2\ ``One-way'' means that the original password is encrypted in 
such a way that even if you know the encryption algorithm, you cannot 
directly decrypt the password. However, one could use a dictionary, 
encrypt its words, then look for encrypted text in the dictionary that 
matches the one-way encrypted password.
---------------------------------------------------------------------------
    There are a number of alternatives to these so-called ``reusable'' 
passwords. Some of these require the use of a device that introduces a 
constantly changing password. Others authenticate by means of a 
challenge and an encrypted response that can be verified.

Risks
    The July 2, 2001 edition of TIME Magazine carried a cover story 
devoted to online privacy risks faced by consumers. Identity theft is 
one of the most critical and increasing risks faced by consumers. 
Information about consumer use of Web services can be collected in each 
user's personal computer by Web service providers in small caches of 
information called ``cookies.'' The Web service providers can use this 
information to tailor services provided to individual users. However, 
this data might contain personal information that could be linked with 
data obtained through other sources and possibly even re-sold to third 
parties for marketing purposes. Consumers are at risk if companies that 
collect this data make use of it in ways that consumers do not expect 
or would not approve. It is this concern that led to requirements for 
companies to report their privacy protection practices to consumers on 
a regular basis.
    Not all Web sites are what they seem and some may appear to offer 
products or services but may in fact simply be ``fronts'' for purposes 
of capturing personal information, credit card numbers and the like. 
This is outright fraud. It is illegal and actionable.
    Public access to government records may expose a considerable 
amount of personal information to public view. Details of court 
records, registrations, building permits and designs, home addresses 
and phone numbers, traffic violations are all potentially available. 
This is through no weakness in the design of the Internet and its 
applications but a consequence of state or local policy with regard to 
access to ``public'' records.
    So-called ``data brokers'' obtain personal information from a 
variety of sources, often government sources, and amass databases of 
personal information which they then resell to the public for a fee. 
There is often considerable debate about the legality of making such 
information accessible, even if it is obtained by legitimate means from 
legal sources.
    Software can be put into your computer by someone with physical 
access to it that will provide a record of virtually everything you do 
with your machine. Similar software might be ingested over the Internet 
as an attachment to an email message or possibly as a consequence of 
loading a Web page and executing ``applets'' (written in programming 
languages such as Java). Such ``Trojan horse'' software can expose all 
of your personal computer's data and activity to view. The recent wave 
of interest in dedicated, high speed access to Internet using Digital 
Subscriber Loops (DSL) or cable modems creates a new risk for 
consumers. If their computers are online all the time, with fixed 
Internet addresses, they may become subject to hacker attacks, just as 
the Web servers and other Internet hosts are exposed today.
    Consumers may be misled by email, chat room or instant messaging 
exchanges into believing things about their correspondents that are not 
true. This works both ways. A person may misrepresent himself or 
herself deliberately or you may be the target of an attack against you 
by someone pretending to be you. Such terms as ``cyberstalking'' have 
entered the language to account for this kind of behavior.

Reactions
    Consumers can respond by being far more careful about the 
information they provide to online service providers. They can avoid 
downloading, opening or executing attachments on email messages until 
they confirm their origin. They can purchase, use and frequently update 
virus detection software. Even if you use secure Web sites, the 
protection extends only to the delivery of personal information to the 
Web site. The Web service provider's privacy protection policies 
determine whether the data provided is propagated further to third 
parties. Consumers should make a point of learning company privacy 
protection policies.
    Companies seeking to protect their own computing assets and 
networks can install firewalls and make use of encryption methods to 
protect employee access to corporate networks via the public Internet. 
Software manufacturers need to pay closer attention to the potential 
abuses their software can support--not simply focus on the constructive 
functionality they offer. Internet service providers need to configure 
their networks to increase resistance to various forms of hacking. And 
legislators may be able to help law enforcement agencies by providing 
tools for combating criminal use of online systems. There is a tension 
in the latter response because it is possible to erode privacy in 
severe ways in the process of trying to assist in law enforcement.
    The Internet has the potential to be an enormously powerful, 
positive and constructive force in our society. It is also a potential 
source of serious abuse. As a society, we are challenged to find a 
balance between protecting the society from abusive practices and 
protecting individuals from abuse by various state, local and federal 
government agencies. The next decade will surely be filled with 
unexpected twists and turns as we learn how to apply online 
technologies to our daily needs. One can only hope that out of all the 
experience will come wisdom and the will to apply it.

    Senator Wyden. Dr. Cerf, thank you for an excellent 
statement, and your admonition to pass no foolish laws; that is 
particularly important. Congress has to look at these issues in 
a different way.
    The Internet is this vast system, decentralized, made up of 
millions of content-creators worldwide, and the last thing that 
one should do would be to impose a sort of Washington one-size-
fits-all solution. That, as you say, would just breed contempt 
for the law because it could not be enforced. Your points are 
very well-taken. I will have some questions in a moment, and 
feel free, any time I am around, to go over the time limit, 
because that was very well-said.
    Dr. Cerf. Thank you very much.
    Senator Wyden. Mr. Miller, welcome.

     STATEMENT OF HARRIS N. MILLER, PRESIDENT, INFORMATION 
               TECHNOLOGY ASSOCIATION OF AMERICA

    Mr. Miller. It is good to see you again, Mr. Chairman. 
Thanks for including ITAA in this hearing. In our 40th 
anniversary year, we have spent a lot of time focusing on the 
issue of cyber security, and one of the obvious reasons is that 
because so much of the Internet as Dr. Cerf has described it is 
managed, owned, and operated by the private sector.
    In fighting physical crime, we always look to Government as 
the lead, because Government has the law enforcement tools and 
the law enforcement community to do that. However, in fighting 
cyber crime, there is a unique onus on the private sector in 
partnership with Government to come up with solutions.
    Certainly, one thing which we believe is particularly 
important, Mr. Chairman, is a higher level commitment both in 
corporations and in the Government to fighting cyber crime. 
That is because consumers demand it, and citizens demand it. As 
Dr. Cerf pointed out, the Internet has morphed into something 
now where the commercial and governmental reliance on it is 
very high, and yet the focus on security has not been, up until 
recent years, a major part of the Internet, but even with this 
growth, as Dr. Cerf pointed out, the Internet is still in its 
infancy.
    At any one time, no more than 3 or 4 percent of the globe 
is connected to it, and most experts will tell you that in the 
not-too-distant future we will live in a truly digital world 
transformed by Internet technology.
    The Internet today, which we think of as basically a PC-
based model sitting at our desk, will change dramatically to 
become ubiquitous, seamless, and integrated into everything we 
do. Digital ubiquity means that we no longer will think about 
how we use and access information on the Internet. A virtual 
information bubble will be formed around our lives, 
anticipating and addressing many of our needs, and this mobile 
commerce, sometimes called m-commerce, or ubiquitous commerce, 
called u-commerce, will be enabled by wireless networking.
    Now, how important is this wireless issue? Well, I 
understand, Mr. Chairman, that there is a major United States 
Cabinet official who has been prohibited by his staff from 
using his wireless PDA because of concern about security, and I 
suggest that this kind of attitude toward the wireless Internet 
is not the way we move toward ubiquity. The security challenges 
in the wire-line world, as extensive as they are today, will 
become even more extensive in the wireless world.
    Let us put this concept into perspective. In the world 
today there are about 20 billion microprocessors, give or take 
a few. Only about 3 billion of them, however, are in computers. 
These others are going to be linked going well beyond some of 
the devices we think about today, such as the cellular phone 
which I have with me, or my PDA, into all kinds of aspects of 
our lives, into automobiles, into thermostats in your homes, 
smart tags used for tollways, and all kinds of other 
opportunities which we are just beginning to think about.
    Operating on multiple protocols, which is part of this 
development of the wireless world, magnifies security 
vulnerabilities, and this proliferation of devices and 
protocols is not surprising, because we are still in the early 
days of this ubiquitous Internet, but we need to develop viable 
security solutions not just in the wire-line world, but also in 
the wireless world.
    Again, we must have this high-level commitment from the 
CEO's, from boardrooms, by political leaders at all levels of 
Government, and this attention must be global, not just in the 
U.S., because we are talking about a global medium.
    We must bring together vertical industries, which are 
unfortunately sometimes segregated, such as telecommunications, 
IT industry, health care, finance, energy, and others, and 
create a broad industry dialog on additional pieces to the 
security puzzle which will take us toward this ubiquitous 
Internet. We need to move toward consolidation, toward 
simplification, toward improved security, if we are going to 
have a truly ubiquitous Internet.
    Today, I suggest a four-point call to action for industry 
to focus beyond the security realities of today by addressing 
u-commerce. First, we need industry collaboration at the 
highest levels. Simply bringing together technical people, as 
important as they are, will not get the job done.
    Second, this collaboration must be across industries. 
Again, the Internet industry itself cannot solve all these 
challenges.
    Third, we have to put aside some egos and some initial 
investments and come together for consolidation and 
collaboration, and it must focus on a point which I know is 
very dear to your heart, Mr. Chairman, that privacy and 
security are often two sides of the same coin.
    We at ITAA are already starting to address this challenge, 
which we know will not be easy to meet. No one, least of all 
the IT industry which I represent, wants to be dictated to 
about its products and capabilities. After all, the IT industry 
believes it knows best its own industry. But I believe unless 
we get some common threads going on these issues, it will be 
very difficult to get a secure world in a wireless Internet.
    A couple more points about cyber security, which I know Mr. 
Schneier will also be addressing. Too often, the assumption is 
made that improving cyber security and fighting cyber crime can 
be done with technology alone. Just give me the right software, 
just give me the right hardware, just give me the right 
firewall and I am all set.
    That is wrong. Just as the best alarm system will not 
protect a building if the alarm code falls into the wrong 
hands, or is not turned on at night, a network will not be 
protected if the passwords are given out freely. Failures in 
the people and in the processes part of the cyber crime 
solution may, in fact, be the majority of the problems we see.
    That means that organizations must be willing to invest not 
just in the technology solutions, but also in the training, the 
security procedures, and this must be across the enterprise, 
not just in the IT department. We need to practice what Dr. 
Cerf has called cyber hygiene. Everyone needs to be a part of 
the solution.
    Now, in many ways, solutions of cyber security challenges 
are no different than any other Internet-related policy issue. 
Industry leadership, again, must be the hallmark--but, 
Government does have an important role.
    So let me review a few points that I believe Government 
must focus on. First, I would like to reiterate the point Dr. 
Cerf made. The Congress must provide for what I call the 
Internet Hippocratic oath. First, do no harm. Do not try to 
pass laws that seem to be ways of dealing with the challenge, 
but in fact miss the mark.
    Second, Government must do a better job of practicing what 
it preaches. The rules of the challenges of technology, people, 
and processes apply to the Government sector just as much to 
the private sector, yet we constantly hear about failures in 
the Government. The U.S. Government must lead by example in 
preventing intrusions into agency Web sites, data banks, and 
information systems. Leadership in this area means substantial 
investments, which I fear candidly are not being made today, 
Mr. Chairman, to deal with the cyber security challenge to the 
Government.
    Number 3, we need a more sophisticated process in the 
Government of leadership. ITAA has advocated the creation of an 
information security czar similar to the one that John Koskanen 
played as the Y2K czar. We have been told that is not likely to 
happen, but we have also been advised of a draft executive 
order which may be issued soon by the President which will 
bring more centralization and focus to Government leadership, 
and we believe that is absolutely essential, and look forward 
to the issuance of that executive order, leading to more 
coordination across all agencies of Government, not just law 
enforcement and national security.
    Funding. Funding is critical. Funding is critical in terms 
of IT spending for the Government, in terms of research and 
development, in terms of work force. We need to focus on these 
issues, not to waste money, not to duplicate what the private 
sector is doing, but to coordinate and collaborate with the 
private sector.
    In conclusion, Mr. Chairman, society's reliance on the 
Internet has just begun. The ubiquitous Internet, u-commerce, 
is going to mean more people connected to the Internet, and 
they need to also have the trust and confidence that these 
media they are using are reliable, so it is important that we 
focus, as this Subcommittee is doing, on information security, 
and come together to meet the challenges.
    Thank you very much.
    [The prepared statement of Mr. Miller follows:]

    Prepared Statement of Harris N. Miller, President, Information 
                   Technology Association of America

Introduction
    Chairman Wyden and Members of the Subcommittee, thank you for 
inviting me here to testify today on Internet security. My name is 
Harris N. Miller, and I am President of the Information Technology 
Association of America (ITAA), now celebrating its 40th Anniversary. I 
am proud that ITAA has emerged as the leading association on cyber 
security issues. ITAA represents over 500 corporate members. These are 
companies that have a vested economic interest in assuring that the 
public feels safe in cyberspace; in the United States and around the 
world, the vast majority of the Internet related infrastructure is 
owned and operated by the private sector.
    I am also President of the World Information Technology and 
Services Alliance (WITSA), a consortium of 41 global IT associations 
from economies around the world, so I offer a global perspective. ITAA 
also houses the Global Internet Project (GIP), an international group 
of senior executives that are committed to fostering continued growth 
of the Internet, and which is spearheading an effort to engage the 
private sector and governments globally on the Next Generation Internet 
and related security and reliability issues. The GIP recently sponsored 
a major event on security and privacy in the next generation of the 
Internet that drew industry leaders from around the world.
    I commend this Subcommittee for holding today's hearing on Internet 
security, and I submit to you that security is ultimately a business 
challenge that must be addressed at the highest levels of corporate 
hierarchy. Customers and citizens--whether consumers in the B2C space, 
or business partners in B2B operations, or Americans receiving services 
electronically from their governments--demand it.
    The stakes involved are enormous. Information technology represents 
over 6 percent of global gross domestic product (GDP), a spending 
volume of more than $1.8 trillion, and over 8 percent of US GDP, 
according to Digital Planet 2000, a report released last year by WITSA. 
According to the US Department of Commerce, IT accounted for 
approximately one-third of the nation's real economic growth from 1995 
to 1999. Despite the current slowdown, IT-driven productivity increases 
have enabled our country to have what many economists thought we could 
not have: high growth, low unemployment, low inflation, and growth in 
real wages.
    The IT industry's importance to the economy goes beyond the numbers 
I just recited, however, because the IT industry is not only a vertical 
industry--such as financial services or health care--it is also a 
horizontal industry whose technology and services under gird all the 
other industry sectors. For instance, the failure of a particular IT 
company to meet the information security challenge not only hurts that 
company's bottom line, it also hurts the bottom line of companies to 
which it provides software or IT services.

The Evolution of the Internet
    In order to look at security issues surrounding the Internet, we 
need to first recall its intended nature. The Internet, when it was 
created nearly thirty years ago, was a collaborative product developed 
by industry, government and academia. It was designed to be an open, 
borderless medium for communication and sharing information, and was 
not programmed with security features. Nor was it intended for 
commercial use.
    As they say, we've come a long way, baby. As you know, the Internet 
today is used extensively as a commercial medium, augmenting or even 
forming the basis of entire business models. Forrester research 
estimates that worldwide B-to-C e-Commerce revenues will reach $96 
billion this year. According to a report by eMarketer, B-to-B online 
commerce revenues will nearly double this year to reach $448 billion, 
with fifty-seven percent of that commercial activity occurring here in 
the U.S.
    And we are moving forward still. Quickly. Most Internet executives 
will tell you that in the not too distant future, we will live in a 
truly digital world, transformed by Internet technology. The Internet 
will be ubiquitous, seamless and integrated into everything we do. 
Digital ubiquity means that we no longer consciously think about how we 
use and access information on the Internet. Phrases like ``always on'' 
and ``24/7'' will be quaint. Just as we assume that the power grid is 
always available, we will have Internet Protocol in and on everything--
our cars, our home appliances, even the products we buy at the 
supermarket. The Internet will allow these items to communicate--
forming a virtual information bubble around our lives, anticipating and 
addressing many of our needs.
    Mobile or Ubiquitous Commerce will be enabled by wireless 
networking. Individuals will move from network to network through the 
use of mobile computing, becoming guests on others' networks. This is 
already starting to happen around the globe.
    The growing e-commerce space and the very real prospect of digital 
ubiquity pose challenges in securing the Internet. Government and 
businesses increasingly have as much at stake digitally as physically. 
Assets and value are no longer based on material objects but on 
information, knowledge and network connections. In the old economy and 
the new, more businesses are using technology to manage operations, 
sales, employee relations, partnerships and supply chains. More revenue 
is derived and more cost savings realized from online activity.
    Yet the same companies and organizations that devote considerable 
financial and human resources to physical security pay much less 
attention--or, sometimes, virtually no attention--to cybersecurity. 
Just like a business cannot properly function without sound financial 
processes and systems, the same has become true for managing network 
activity and the valuable, critical information that flows through the 
network.
    As I mentioned earlier, the Internet was not designed with 
commercial and security features in mind, yet as businesses become 
dependent on it for growth and market share, vast security needs have 
emerged. ITAA believes strongly that for this reason, Internet security 
measures must be addressed at the CEO and boardroom level of every 
company and by political leadership at all levels. And this attention 
must occur around the globe, not just in the U.S.

Economy at Risk
    Cyber crime places the digital economy at risk. Just as the reality 
or threat of real crime can drain the economic vitality of 
neighborhoods, cities and even nations, so to can the reality or threat 
of crimes committed online against people and property shutter 
businesses and cause an otherwise motivated digital public to break 
their Internet connection.
    Cyber crime falls into several categories. Most incidents are 
intended to disrupt or annoy computer users in some fashion. 
Distributed denial of service (DoS) attacks crash servers and bring 
down websites through the concerted targeting of thousands of email 
messages to specific electronic mailboxes. Viruses and other malicious 
code introduce phantom computer software programs to computers, 
designed intentionally to corrupt files and data. Other online 
intrusions are conducted to deface websites, post political messages or 
taunt particular groups or institutions. Even though no one stands to 
profit, damages caused by such attacks can run from the trifling to the 
millions of dollars. What motivates these attackers? Hackers may view 
the attack as a technology challenge, may be seeking to strike a blow 
against the establishment, may be looking for group acceptance from 
fellow hackers, or may be just indulging themselves in a perverse 
thrill.
    Other cyber criminals are more material guys and gals. They hope to 
profit from their intrusions by stealing valuable or sensitive 
information, including credit card numbers, social security numbers, 
even entire identities. Targets of opportunity also include trade 
secrets and proprietary information, medical records, and financial 
transactions.
    For some cyber criminals, the Internet is a channel for the 
dissemination of child pornography and a tool used in the furtherance 
of other crimes against children and adults. These crimes include 
fraud, racketeering, gambling, drug trafficking, money laundering, 
child molesting, kidnapping and more.
    Cyber terrorists may seek to use the Internet as a means of 
attacking elements of the physical infrastructure, like power stations 
or airports. As we have seen in the Middle East, cyber terrorists 
encouraging political strife and national conflict can quickly turn the 
Internet into a tool to set one group against another and to disrupt 
society generally.
    Another class of cyber criminal and, unfortunately, the most common 
is the insider who breaks into systems to eavesdrop, to tamper, perhaps 
even to hijack corporate IT assets for personal use. These could be 
employees seeking revenge for perceived workplace slights, stalking 
fellow employees, looking for the esteem of peers by unauthorized 
``testing'' of corporate security, or other misguided individuals.
    Regardless of category, the threat is real. A recent study produced 
by Asta Networks and the University of California San Diego monitored a 
tiny fraction of the addressable Internet space and found almost 13,000 
DoS attacks launched against over 5000 targets in just one week. While 
most targets were attacked only a few times, some were victimized 60 or 
more times during the test period. For many small companies, being 
knocked off the Internet for a week means being knocked out of business 
for good.
    The Computer Security Institute/FBI also documents the problem in a 
widely reported study on computer breaches. This year's survey of 538 
respondents found 85 percent experiencing computer intrusions, with 64 
percent serious enough to cause financial losses. Estimated losses from 
those willing to provide the information tallied $378 million, a 43 
percent increase from the previous year.
    A nationwide public opinion poll released last year by ITAA and EDS 
showed that an overwhelming majority of Americans, 67 percent, feel 
threatened by or are concerned about cyber crime. In addition, 62 
percent believe that not enough is being done to protect Internet 
consumers against cyber crime. Roughly the same number, 61 percent, say 
they are less likely to do business on the Internet as a result of 
cyber crime, while 33 percent say crime has no effect on their e-
commerce activities. The poll of 1,000 Americans also revealed that 65 
percent believe online criminals have less of a chance of being caught 
than criminals in the real world, while only 17 percent believe cyber 
criminals have a greater chance of being caught.
    These threats collectively represent a chipping away at the trust 
that is so critical to the Internet. Thankfully, technology is moving 
faster than public policy ever could to secure the technology that will 
dominate our economic future.

The Industry Securing the Internet: Information Security
    Information security, or cyber security, is the multifaceted 
discipline that counteracts cyber crime and works to secure the 
Internet. Information security--or InfoSec--deals with cyber crime 
prevention, detection and investigation. How do we achieve improved 
security for the Internet of today and minimize the security challenges 
of tomorrow's Internet?

Cyber Security is Built From Technology, Processes and People
    Too many times, the assumption is made that improving cyber 
security and fighting cyber crime can be done with technology alone. 
That is wrong. Just as the best alarm system will not protect a 
building if the alarm code falls into the wrong hands, a network will 
not be protected if the passwords are given out freely. Failures in the 
``process and people'' part of the cyber crime solution may, in fact, 
be the majority of the problems we see. Processes and people tend to be 
the more problematic elements of the Internet security puzzle. The two 
are closely linked. From a strategic point of view, the challenge is to 
make cyber security a top priority issue. Moving from platitudes to 
practical action requires the sustained commitment of senior 
management.
    The goal is to embed cyber security in the corporate culture. That 
is not always easy to do. CEO's want their IT systems to be as fast as 
Ferrari but as safe as an armored truck. Whenever tradeoffs arise, the 
bias is towards speed, not safety and security. The challenge for the 
IT sector and its customers working together is to provide security at 
the speed of business.
    Organizations must be willing to invest in the development of 
comprehensive security procedures and to educate all employees--
continuously. We call this practicing sensible cyber hygiene, a term 
that my friend Vint Cerf frequently uses as he speaks about these 
challenges around the globe. The primary focus of improving processes 
and changing behaviors is inside the enterprise. However, the scope of 
the effort must also take into account the extended organization--
supply chain partners, subcontractors, customers, and others that must 
interact on a routine basis.
    With cyber hygiene practices in place, companies can more 
effectively use the technologies that are available. A very simple 
example is that a company may diligently employ the latest virus 
detection software. But, if individual users within the company do not 
regularly heed messages to update virus profiles covered by the 
software, it renders the company's security less effective.

Industry Plan for Cyber Security
    ITAA and its members have been working to execute a multi-faceted 
plan designed to improve U.S. cooperation on issues of information 
security. However, Mr. Chairman, we would all be remiss if we believed 
it was just the IT industry that must cooperate within its own 
industry--we must work cross industry, and industry with government. 
Protecting our infrastructure is a collective responsibility, not just 
the IT community's role.
    We are working on multiple fronts to improve the current mechanisms 
for combating threats and responding to attacks through our role as a 
Sector Coordinator for the Information and Communications sector, 
appointed by the U.S. Department of Commerce. Through ITAA's InfoSec 
Committee, our member companies also are exploring joint research and 
development activities, international issues, and security workforce 
needs. Elements of the plan include Information Sharing, Awareness, 
Education, Training, Best Practices, Research and Development, and 
International Coordination.

Information Sharing: Sharing information about corporate information 
security practices is inherently difficult. Companies are 
understandably reluctant to share sensitive proprietary information 
about prevention practices, intrusions, and actual crimes with either 
government agencies or competitors. Information sharing is a risky 
proposition with less than clear benefits. No company wants information 
to surface that they have given in confidence that may jeopardize their 
market position, strategies, customer base, or capital investments. Nor 
would they risk voluntarily opening themselves up to bogus but costly 
and time-consuming litigation. Releasing information about security 
breaches or vulnerabilities in their systems presents just such risks. 
Negative publicity or exposure as a result of reports of information 
infrastructure violations could lead to threats to investor--or worse--
consumer confidence in a company's products. Companies also fear 
revealing trade secrets to competitors, and are understandably 
reluctant to share such proprietary information. They also fear sharing 
this information, particularly with government, may lead to increased 
regulation of the industry or of electronic commerce in general.
    Public policy factors also act as barriers to industry information 
sharing. One of the obstacles is the Freedom of Information Act (FOIA). 
Companies worry that if information sharing with government really 
becomes a two-way street, FOIA requests for information they have 
provided to an agency could prove embarrassing or costly. FOIA requests 
place the private sector's requirement for confidentiality at odds with 
the public sector's desire for sunshine in government information. We 
are working with Congressman Tom Davis (R-VA), Senator Robert Bennett 
(R-UT), and other key players on legislation to meet this concern.
    Anti-trust concerns are a second potential legal hurdle to 
information sharing. Fortunately, such risks appear small. The 
antitrust laws focus on sharing information concerning commercial 
activities. Information Sharing Advisory Centers (ISACs) should be in 
compliance with the antitrust laws because they are not intended to 
restrain trade by restricting output, increasing prices, or otherwise 
inhibiting competition, on which the antitrust laws generally focus. 
Rather, ISACs facilitate sharing of information relating to members' 
efforts to enhance and to protect the security of the cyber 
infrastructure, so the antitrust risk of such exchange is minimal. The 
Justice Department has also indicated that there are minimal antitrust 
concerns involving properly structured joint industry projects for 
dealing with externalities. An entity created to share information 
regarding common threats to critical infrastructure should fall into 
this category.
    Given the changing nature of the cyber crime threat and in spite of 
the many business, operational and policy hurdles standing in the way, 
many companies in the private sector recognize the need to have formal 
and informal information sharing mechanisms. Internet Service Providers 
are an example of the latter circumstance. Because these firms provide 
networking capability commercially, these businesses often have 
extensive network security expertise. Such firms act as virtual 
Information Sharing and Analysis Centers, gathering information about 
detected threats and incursions, sanitizing it by removing customer 
specific data, and sharing it with customers.
    The IT industry has adopted a formal approach to the information 
sharing challenge. In January 2001, nineteen of the nation's leading 
high tech companies announced the formation of a new Information 
Technology Information Sharing and Analysis Center (IT-ISAC) to 
cooperate on cyber security issues. The objective of the IT-ISAC is to 
enhance the availability, confidentiality, and integrity of networked 
information systems. The group has made excellent progress in the six 
months since its founding and is in the process of being formally 
``stood up,'' although information sharing is already beginning to take 
place within this ISAC.
    The IT-ISAC is a not-for-profit corporation that will allow the 
information technology industry to report and exchange information 
concerning electronic incidents, threats, attacks, vulnerabilities, 
solutions and countermeasures, best security practices and other 
protective measures. Its internal processes will permit information to 
be shared anonymously. The organization is a voluntary, industry-led 
initiative with the goal of responding to broad-based security threats 
and reducing the impact of major incidents. Membership in the IT-ISAC 
is open to all U.S.-based information technology companies. It will 
offer a 24-by-7 network, notifying members of threats and 
vulnerabilities. The group also is clear on what is will not undertake. 
Excluded activities include standards setting, product rating, audits, 
certifications or dispute settlement. Similarly, the IT-ISAC is not a 
crime fighting organization. The nineteen Founding Member companies of 
the IT-ISAC, all represented at the announcement, are AT&T, Cisco 
Systems, Computer Associates, CSC, EDS, Entrust Technologies, Hewlett-
Packard Company, IBM, Intel Corporation, KPMG Consulting, Microsoft 
Corporation, Nortel Networks, Oracle Corp., RSA Security, Securify 
Inc., Symantec Corporation, Titan Systems Corp., Veridian and VeriSign, 
Inc.
    The group plans to evolve its information sharing activities over 
time, starting with IT companies and then moving across sectors. It is 
also expected that the ISAC will enable sensitive information to be 
shared between industry and government. But that sharing must be a two-
way street, if it is going to be effective.
    The Software Engineering Institute's CERT Coordination Center plays 
an information sharing role for numerous industries. The oldest and 
largest of information sharing programs, CERT is a Federally funded 
research and development center at Carnegie Mellon University in 
Pittsburgh. The organization gathers and disseminates information on 
incidents, product vulnerabilities, fixes, protections, improvements 
and system survivability. The organization strives to maintain a leak 
proof reputation while collecting thousands of incident reports yearly. 
These could be anything from a single site reporting a compromise 
attempt to a virus with worldwide impact.
    The IT-ISAC is specifically designed to support the IT industry in 
this country. Other ISACs have been formed in the financial services 
and telecommunications industries. And I would like to mention two 
other groups that play an important information sharing role. The 
Partnership for Critical Infrastructure Security provides a venue for 
organizations from numerous industries to pool their knowledge and 
experience about information infrastructure risks and protections. PCIS 
also examines critical interdependencies among infrastructure providers 
and seeks common solutions to risk mitigation. The Partnership for 
Global Information Security <http://www.pgis.org> provides a forum for 
executives from both the public and private sector in economies around 
the world to share information about InfoSec topics. PGIS members are 
focused on five areas for collaboration: sound practices, workforce, 
research and development, cyber crime and law enforcement and public 
policy. ITAA is proud to have played a leadership role in the formation 
of both organizations, and I sit on the Boards of Directors of both.

Awareness: ITAA and its member companies are raising awareness of the 
issue within the IT industry and through partnership relationships with 
other vertical industries, including finance, telecommunications, 
energy, transportation, and health services. We are developing regional 
events, conferences, seminars and surveys to educate all of these 
industries on the importance of addressing information security. An 
awareness raising campaign targeting the IT industry and vertical 
industries dependent on information such as the financial sector, 
insurance, electricity, transportation and telecommunications is being 
overlaid with a targeted community effort directed at CEOs, end users 
and independent auditors. The goal of the awareness campaign is to 
educate the audiences on the importance of protecting a company's 
infrastructure, and instructing on steps they can take to accomplish 
this. The message is that information security must become a top tier 
priority for businesses and individuals.

Education: In an effort to take a longer-range approach to the 
development of appropriate conduct on the Internet, the Department of 
Justice and the Information Technology Association of America have 
formed the Cybercitizen Partnership. Numerous ITAA member companies and 
recently the Department of Defense have joined this effort. The 
Partnership is a public/private sector venture formed to create 
awareness in children of appropriate on-line conduct. This effort 
extends beyond the traditional concerns for children's safety on the 
Internet, a protective strategy, and focuses on developing an 
understanding of the ethical behavior and responsibilities that 
accompany use of this new and exciting medium. The Partnership is 
developing focused messages, curriculum guides and parental information 
materials aimed at instilling a knowledge and understanding of 
appropriate behavior on-line. The Partnership hosted a very successful 
event last fall at Marymount University in Northern Virginia that 
brought together key stakeholders in this area. Ultimately, a long 
range, ongoing effort to insure proper behavior is the best defense 
against the growing number of reported incidents of computer crime. The 
Cybercitizen website has received over 600,000 hits in the past year.

    Training: ITAA long has been an outspoken organization on the 
impact of the shortage of IT workers--whether in computer security or 
any of the other IT occupations. Our groundbreaking studies on the IT 
workforce shortage, including the latest, ``When Can You Start,'' have 
defined the debate and brought national attention to the need for new 
solutions to meet the current and projected shortages of IT workers. We 
believe it is important to assess the need for and train information 
security specialists, and believe it is equally important to train 
every worker about how to protect systems.
    We have planned a security skills set study to determine what the 
critical skills are, and will then set out to compare those needs with 
courses taught at the university level in an effort to determine which 
programs are strong producers. We encourage the development of 
``university excellence centers'' in this arena, and also advocate 
funding for scholarships to study information security. We commend the 
Administration and Congress for supporting training more information 
security specialists.
    The challenge to find InfoSec workers is enormous, because they 
frequently require additional training and education beyond what is 
normally achieved by IT workers. Many of the positions involving 
InfoSec require US citizenship, particularly those within the federal 
government, so using immigrants or outsourcing the projects to other 
countries is not an option.

Best Practices: We are committed to promoting best practices for 
        information security, and look to partners in many vertical 
        sectors in order to leverage existing work in this area. In 
        addition, our industry is committed to working with the 
        government--whether at the federal, state or local levels. For 
        example, we are working with the Federal Government's CIO 
        Council on efforts to share industry's best information 
        security practices with CIOs across departments and agencies. 
        At the same time, industry is listening to best practices 
        developed by the government. This exchange of information will 
        help industry and government alike in creating solutions 
        without reinventing the wheel.
    While we strongly endorse best practices, we strongly discourage 
the setting of ``standards.'' Why?
    Broadly, the IT industry sees standards as a snapshot of technology 
at a given moment, creating the risks that technology becomes frozen in 
place, or that participants coalesce around the ``wrong'' standards. 
Fighting cyber crime can be thought of as an escalating arms race, in 
which each time the ``good guys'' develop a technology solution to a 
particular threat, the ``bad guys'' develop a new means of attack. So 
to mandate a particular ``solution'' may be exactly the wrong way to go 
if a new threat will soon be appearing.
    It is also critical that best practices are developed the way much 
of the Internet and surrounding technologies have progressed--through 
``de facto'' standards being established without burdensome technical 
rules or regulations. While ITAA acknowledges the desire within the 
Federal government to achieve interoperability of products and systems 
through standard-setting efforts, the reality is that the IT industry 
can address this simply by responding to the marketplace demand. The 
marketplace has allowed the best technologies to rise to the top, and 
there is no reason to treat information security practices differently.

Research and Development: While the information technology industry is 
spending billions on research and development efforts--maintaining our 
nation's role as the leader in information technology products and 
services--there are gaps in R&D. Frankly, for industry, more money is 
frequently spent on ``D''--development--then ``R''--long-term research. 
Government, mainly in the Department of Defense, focuses its 
information security R&D spending on defense and national security 
issues. We believe that between industry's market-driven R&D and 
government's defense-oriented R&D projects, gaps may be emerging that 
no market forces or government mandates will address. Government 
funding in this gap--bringing together government, academia and 
industry--is necessary.

International: In our work with members of the information technology 
        industry and other industries, including financial services, 
        banking, energy, transportation, and others, one clear message 
        constantly emerges: information security must be addressed as 
        an international issue. American companies increasingly are 
        global corporations, with partners, suppliers and customers 
        located around the world. This global business environment has 
        only been accented by the emergence of on-line commerce--
        business-to-business and business-to-consumer alike.
    Addressing information security on a global level clearly raises 
questions. Many within the defense, national security and intelligence 
communities rightly raise concerns about what international actually 
means. Yet, we must address these questions with solutions and not 
simply ignore the international arena. To enable the dialogue that is 
needed in this area, ITAA and WITSA conducted the first Global 
Information Security Summit in Fall 2000. This event brought together 
industry, government and academia representatives from around the world 
to begin the process of addressing these international questions. A 
second Summit is planned for later this year to continue the dialogue. 
The governmental international linkages must be strengthened--and not 
just among the law enforcement and intelligence communities. Government 
ministries around the world involved in economic issues--such as our 
own Department of Commerce--need to be key players.
How Government Can Help
    In many ways, solutions to cyber security challenges are no 
different than any other Internet-related policy issue. Industry 
leadership has been the hallmark of the ubiquitous success of our 
sector. Having said that, we also believe that government has several 
roles to play in helping achieve better cyber security and combating 
cyber crime:

  <bullet> First and foremost, like a good physician practicing under 
        the Hippocratic oath, do no harm. Excessive or overly broad 
        legislation and subsequent regulation crafted in a rapidly 
        changing technology environment is apt to miss the mark and 
        likely to trigger a host of unintended consequences. In many 
        instances, existing laws for crimes in the physical world are 
        adequate to address crimes conducted in cyberspace. New 
        legislation should always be vetted for circumstances that 
        single out the Internet for discriminatory treatment.

  <bullet> Practice what you preach. The rules of technology, process 
        and people apply equally to the public sector. The U.S. 
        government must lead by example in preventing intrusions into 
        agency websites, databanks and information systems. Leadership 
        in this area means substantial investments of new money in 
        information security technology and services. Responding to the 
        issue by reallocating existing dollars from current programs is 
        robbing Peter to pay Paul and likely to play out at the expense 
        of the American public and their confidence in e-government. It 
        also means insisting that government agencies implement 
        rigorous information security processes and practice them on a 
        daily basis. Making InfoSec part of the government culture will 
        require extensive senior management commitment.

  <bullet> Reach out to international counterparts for crucial 
        discussions of cyber security, and in particular, how to most 
        constructively and effectively enforce existing criminal laws 
        in the increasingly international law enforcement environment 
        fostered by the Internet and other information networks.

  <bullet> Bring leadership to bear through existing structures 
        including the new cyber security board that will likely be 
        established by Executive Order later this year. ITAA, its 
        members and the IT industry continue to work hard to develop 
        collegial and constructive relationships with the leadership 
        and staff of the Critical Information Assurance Office (CIAO), 
        the Commerce Department (DOC), the National Institute of 
        Standards and Technology (NIST), and the Critical Information 
        Infrastructure Assurance Program Office (CIIAP) at NTIA, as 
        well as the National Security Council (NSC), Department of 
        Justice (DOJ), Department of Energy, the National Information 
        Protection Center (NIPC), and the National Security Agency 
        (NSA).

  <bullet> Funding will also help in the areas of workforce development 
        and research. We have a critical shortage of information 
        technology professionals generally and information security 
        specialists specifically. In general, we support legislation to 
        increase the number of appropriately skilled workers in this 
        critical area. We also support additional R&D funding.
Conclusion
    Society's reliance on the Internet will only increase over time. 
The evolution of the Internet over these thirty-some years tells us 
that its possibilities are limited only by our imaginations. The 
prospect of ubiquitous commerce, brought about by wireless computing, 
could pose greater security challenges as we move forward.
    Internet security is an enabler to continued progress, and without 
it, public trust could erode and the true limits of technology never be 
pushed. I submit to you that the market is moving quickly to establish 
and maintain public trust in this new and exciting medium.
    In closing, I leave the committee with the following thoughts on 
securing the Internet.

  <bullet> Internet security must continue to become the focus of 
        corporate CEOs and Boards of Directors and their counterparts 
        in the public sector. Internet security is economic security, 
        and market forces will continue to draw the attention of the 
        highest levels of corporate hierarchy. This is a beneficial 
        development.

  <bullet> The Internet will continue to evolve towards ubiquity. As it 
        does, technological developments will move quickly to secure 
        it, but implementing those technologies will be essential.

  <bullet> Technology is only part of the answer. People and processes 
        are the other key ingredients. Assuring that users and 
        companies practice sound ``cyber hygiene'' is important to 
        securing the Internet.

  <bullet> Market forces are the key. These forces will prevent an 
        erosion of trust, will contribute to efficiently developing 
        security products, and will drive management at all levels to 
        focus on Internet security.

  <bullet> Educating young people about the need to be good 
        cybercitizens--through programs such as the ITAA/Department of 
        Justice/Department of Defense Cybercitizen Partnership--is one 
        tool to fight cybercrime that needs wider support.

    Thank you and I welcome any questions from the Committee.

    Senator Wyden. Very well said.
    Mr. Schneier, welcome.

     STATEMENT OF BRUCE SCHNEIER, CHIEF TECHNICAL OFFICER, 
              COUNTERPANE INTERNET SECURITY, INC.

    Mr. Schneier. Thank you. Thanks for having us. I spent the 
entire weekend at DEFCON sort of wondering what I would tell 
the Committee. It has been interesting, I spent a lot of time 
talking to different people, and when I got here I actually 
snitched one of your pads and wrote a bunch of notes.
    Kind of the neat thing is, I am listening to your opening 
remarks, and about five of the points I wanted to make you made 
to me, so I feel like I am in good company. Now, you said very 
well, the Internet is important to business, to people. The 
ramifications of that are interesting, but what we want to do 
fundamentally is take all of our business and social constructs 
and move them from the real world to the Net, whether it is 
having a private conversation, engaging in commerce, having a 
meeting, political discussions, potentially we are talking 
about putting everything that we do in the real world on the 
Net.
    Fundamentally, security is the enabling technology, the 
limits of security are in a very real sense the limits of the 
Internet. If you cannot do it securely, whether it is you 
knowing who I am when I speak to you, or me making an anonymous 
purchase, or voting, we are not going to do it, and this is 
only going to get bigger.
    Now, I have been doing security for, I do not know, 10, 15 
years, and what I have learned sort of watching the world and 
being involved in it is that security is not working. Every 
year, the problem gets worse. Security is failing us. We see 
this in all the press reports you mentioned. We see this in how 
much damage there is, how much money is lost, how many 
incidents there are. I mean, every metric.
    Things are not getting better, despite computer security 
being a 40-year-old academic discipline, and every year there 
are new products, new ideas, new services. It is not that we 
are not winning, we are not even breaking even, and I spent a 
lot of time writing my most recent book and thinking about the 
problem, because it is surprising--why are we not getting 
better?--and I believe fundamentally it is about complexity, 
and we heard that here, in some ways.
    Complexity to me is the enemy of security. As things get 
more complex, they necessarily get less secure, and our 
Internet, our electronic world is getting more complex faster 
than our security knowledge is improving, whether it is always 
on connections, whether it is rich content, whether it is a new 
version of Windows, it is more complex, more features, more 
interactions, more users, and it is less secure.
    So what do we do? To a first approximation, the Internet is 
about people. You said very well that technology alone cannot 
be the solution, because it is not a technology problem. 
Fundamentally, it is a people problem. I mean, the same 
problems we have in the real world we have on the Net. We have 
fraud, threat, trespass, damage. None of these crimes are new.
    Now, also, the Internet is different. There are three main 
differences that are worth bringing out. The first one is 
automation. The fact that you can automate an attack, the fact 
that you can automate a crime, makes certain things a lot 
easier to do as a criminal, and a lot harder to find.
    You know, picking up a penny from everybody becomes a valid 
way of doing crime on the Net. In the real world, you could 
never make that efficient.
    We talk about the notion of the script kitty, and I think 
Vint mentioned this, the idea of taking an attack where a 
skilled person knows how to do it, encapsulating it in 
software, and giving it to 10,000 people. We have separated 
skill from ability through automation, and that is a very big 
difference, and a very big deal.
    Another big difference is a lack of political boundaries. 
All of our law enforcement is based on proximity, an attacker 
going up to you and hitting you over the head. We know how to 
prosecute that, but if the attacker starts in Russia and 
accesses computers in France to get to Citibank in New York, 
suddenly that is a lot less clear, and things are much more 
complicated, and this lack of political boundaries makes any 
security work much more difficult, because you are not dealing 
with any coherent group.
    The third difference is how techniques propagate. Because 
the Internet is so pervasive in communication, criminal 
techniques, hacking techniques propagate much quicker, and you 
can see this in the real world, when a new way of breaking into 
an ATM machine, for example, is discovered, people learn about 
it slowly, and the attack becomes in vogue. On the Net, this 
can happen overnight, so a lot of our traditional ways of 
dealing with crime, which is fixing it after we see it is a 
problem, fails when things happen so fast.
    So again, to me, I believe Internet security will continue 
to get worse in the foreseeable future. I do not see any magic 
bullets. I do not see any ways to solve the problem.
    So the question to ask is, what do we do? Given this 
reality, and I believe 100 percent this is true, what can we 
do? We cannot shut the Net down. We cannot say, less 
complexity. I know you think the operating system is fun. We 
are not going to do that. We are not going to put cell phones 
in the Net. We are not going to have mobile commerce. They are 
going to happen, whether they are secure or not, so I have some 
suggestions.
    The first one is something that I am working on in my 
company, not really something for you to do, is to look at 
detection response. I mean, I look at security in terms of 
prevention, detection, and response. A lot of what we have done 
in computer security is prevention. We have built all of these 
prophylactics that we assume will prevent fraud, prevent crime, 
and that is what is failing in the real world. We get security 
through detection response.
    I do not wear body armor, but I am safe on the streets not 
because I have prevented crime, but because I understand that 
if there is a crime, that there will be detection response. If 
you want to improve the security in your house, you do not make 
your walls thicker, you get a burglar alarm, and to me this is 
very important. This makes security robust. Right now, security 
is very fragile on the Net, and you see it in the newspapers. A 
new vulnerability is discovered, and we are all at risk. 
Suddenly, we are not secure.
    Alarm systems are robust. If you have enough motion sensors 
and pressure plates and electric eyes in your house, you will 
catch the burglar, regardless of how he got in, and we need 
that same kind of thinking on the Net.
    The second thing, and you talked about this, and I am 
thrilled you did, risk management. A lot of us talk about how 
do we avoid the threat? We cannot avoid the threat. The 
question is, how do we manage the risk? Just like any other 
business risk, computer crime and fraud is a risk, and this has 
some ramifications. I believe the insurance industry will be 
key in dealing with computer security, just like the insurance 
industry over the century has been key in safe automobile 
practices, in building and housing codes, because they are the 
risk manager of last resort.
    In a few years, you will get cyber insurance. You will have 
to, as a business, and then a few years later, premiums will 
diverge, depending on what products you are using, what you are 
doing, and what this will bring is something else we are 
lacking, is liability.
    Right now, there is no liability in software. An automobile 
manufacturer could, conceivably, put an oxyacetylene shunt into 
your fuel line and boost the performance of your car. They do 
not do that because they know the liability to be enormous. The 
software industry has no such compunctions. There is no 
liability. If you read software licenses, they basically say, 
if this product deliberately maims your children, and we knew 
about it, and we chose not to tell you because we thought it 
would hurt sales, we are not liable. This is a disaster, 
because it means that features come unfettered with any 
controls.
    My third piece of advice is about legislation. I worry 
about rushing into legislation. This is all very new. We do not 
understand how the technology works, how it interacts, even 
things like what it means to trespass on a Web site. What does 
unauthorized access mean? It is not at all obvious.
    I am spending time talking with a Stanford law professor 
trying to write a paper on this. It is very hard to pin down 
what these things mean in this new environment, and we will 
figure it out, but it is going to take a while, and I worry 
about quick laws that have unintended consequences. We have 
seen that a couple of times.
    I also think we really can no longer have laws that trail 
technology. Up to now a new technology has appeared, the 
telephone, and over 10 or 20 years we have figured out what the 
laws are. Technology moves too fast today. We do not have time 
to do that. This is an enormous challenge because we almost 
have to make laws that are based on principles, not based on 
the details of technology, and then that way you can make the 
technology match what you want.
    To a very real extent, technology can determine what laws 
are possible. There are some things we cannot do on the Net, no 
matter how much you want, but if we have some guiding 
principles as to what we as a society believe is good, and 
right, and important, we can codify that into the actual 
technology, and to me this is an enormous opportunity for 
America to take its principles of free speech, personal 
privacy, of liberty, and weave them into the fabric of a very 
international Net. We could fail to do that, but we could also 
do that.
    I guess those are my points. I will take questions, and if 
there is ever a job application for that information security 
czar, I would love to do it.
    [Laughter.]
    [The prepared statement of Mr. Schneier follows:]

    Prepared Statement of Bruce Schneier, Chief Technical Officer, 
                  Counterpane Internet Security, Inc.

    My name is Bruce Schneier. I am the founder and Chief Technical 
Officer of Counterpane Internet Security. Inc. Counterpane was founded 
to address the immediate need for increased Internet security, and 
essentially provides burglar alarm services for computer networks. I am 
the author of seven books on cryptography and computer security, as 
well as hundreds of articles and papers on those topics. For several 
years, I have been a security consultant to many major Internet 
companies.
    I'd like to thank the Committee for holding this hearing today. 
Internet security is an enormously important issue, and one that will 
become increasingly important as the Internet affects the lives of more 
people. Simply stated, during the last decade the Internet has 
transitioned from a technological plaything for a few people to a 
critical infrastructure as fundamental as the phone system. Internet 
security has transitioned from an academic curiosity to a fundamental 
enabling technology for our future. The limits of Internet security are 
the limits of the Internet, and the limits of the Internet profoundly 
affect our country as the Information Economy continues to grow.
    I believe that there are two questions before the Committee today. 
The first is whether the Internet is safe enough to conduct business 
on. The second, if you agree that the Internet is not safe enough, is 
what we can do to improve the situation. I will focus my remarks on 
these two issues.

Introduction
    The Internet is critical to business. Companies have no choice but 
to connect their internal networks to the rest of the world--to link 
with customers, suppliers, partners, and their own employees. But with 
that connection comes new threats: malicious hackers, criminals, 
industrial spies. These network predators regularly steal corporate 
assets and intellectual property, cause service breaks and system 
failures, sully corporate brands, and frighten customers. Unless 
companies can successfully navigate around these, they will not be able 
to unlock the full business potential of the Internet.
    Traditional approaches to computer security center around 
preventive techniques, and they don't work. Despite decades of 
research, and hundreds of available security products, the Internet has 
steadily become more dangerous. The increased complexity of the 
Internet and its applications, the rush to put more services and people 
on the Internet, and the desire to interconnect everything all 
contribute to the increased insecurity of the digital world.
    Security based solely on preventive products is inherently fragile. 
Newly discovered attacks, the proliferation of attack tools, and flaws 
in the products themselves all result in a network becoming vulnerable 
at random (and increasingly frequent) intervals.
    Active security monitoring is a key component missing in most 
networks. Insurance is another. In business, insurance is the risk 
manager of last resort. And in most cases, insurance drives security 
requirements. Companies install a burglar alarm system in their 
warehouse not because it reduces theft, but because it reduces their 
insurance rates. As the need for Internet security becomes more 
universally recognized , insurance companies will begin to drive 
security requirements and demand product improvements.
    The third key component to a secure Internet is law enforcement. 
The primary reason we live in a safe society is that we prosecute 
criminals. Today the Internet is a lawless society; hackers can break 
into computers with relative impunity. We need to turn the Internet 
into a lawful society, through regular prosecution and conviction of 
Internet criminals.

The Importance of Security
    When I began working in computer security, the only interest was 
from the military and a few scattered privacy advocates. The Internet 
has changed all that. The promise of the Internet is to be a mirror of 
society. Everything we do in the real world, we want to do on the 
Internet: conduct private conversations, keep personal papers, sign 
letters and contracts, speak anonymously, rely on the integrity of 
information, gamble, vote, publish digital documents. All of these 
things require security. Computer security is a fundamental enabling 
technology of the Internet; it's what transforms the Internet from an 
academic curiosity into a serious business tool. The limits of security 
are the limits of the Internet. And no business or person is without 
these security needs.
    The risks are real. Everyone talks about the direct risks: theft of 
trade secrets, customer information, money. People also talk about the 
productivity losses due to computer security problems. What's the loss 
to a company if its e-mail goes down for two days? Or if ten people 
have to scramble to clean up after a particularly nasty intrusion? I've 
seen figures as high as $10 billion quoted for worldwide losses due to 
the ILOVEYOU virus; most of that is due to these productivity losses.
    More important are the indirect risks: loss of customers, damage to 
brand, loss of goodwill. Last year Egghead.com had a network break-in 
and it was rumored that a million credit card numbers were stolen. 
Regardless of how the investigation turned out, some percentage of 
customers decided to shop elsewhere. When CD Universe suffered a credit 
card theft in early 2000, it cost them dearly in their war for market 
share against Amazon.com and CDNow. In the aftermath of the Microsoft 
attack in October 2000, the company spent much more money and effort 
containing the public relations problem than fixing the security 
problem. The public perception that their source code was untainted was 
much more important than any effects of the actual attack.
    And more indirect risks are coming. European countries have strict 
privacy laws; American companies can be held liable if they do not take 
steps to protect the privacy of their European customers. While ``safe 
harbor'' provisions may provide immediate relief, it will not solve the 
problem once the European countries realize that their data is not 
being protected.
    The U.S. has similar laws in particular industries--banking and 
healthcare--and there are bills in Congress to protect privacy more 
generally. We have not yet seen shareholder lawsuits against companies 
that failed to adequately secure their networks and suffered the 
consequences, but they're coming. Can company officers be held 
personally liable if they fail to provide for network security? The 
courts will be deciding this question in the next few years.
    As risky as the Internet is, companies have no choice but to be 
there. The lures of new markets, new customers, new revenue sources, 
and new business models are just so great that companies will flock to 
the Internet regardless of the risks. There is no alternative. This, 
more than anything else, is why computer security is so important.
The Failure of Traditional Security
    Five years ago, network security was relatively simple. No one had 
heard of denial-of-service attacks shutting down Web servers, Web page 
scripting flaws, or the latest vulnerabilities in Microsoft Outlook 
Express. In recent years came intrusion detection systems, public-key 
infrastructure, smart cards, VPNs, and biometrics. New networking 
services, wireless devices, and the latest products regularly turn 
network security upside down. There are literally hundreds of network 
security products you can buy, and they all claim to provide you with 
security. They regularly fail, but still you hear companies say: ``Of 
course I'm secure. I bought a firewall.''
    Network security is an arms race, and the attackers have all the 
advantages. First, network defenders occupy what military strategists 
call ``the position of the interior'': the defender has to defend 
against every possible attack, while the attacker only has to find one 
weakness. Second, the immense complexity of modern networks makes them 
impossible to properly secure. And third, skilled attackers can 
encapsulate their attacks in software, allowing people with no skill to 
use them. It's no wonder businesses can't keep up with the threat.
    What's amazing is that no one else can either. Computer security is 
a 40-year-old discipline; every year there's new research, new 
technologies, new products, even new laws. And every year things get 
worse.
    If there's anything computer security professionals have learned 
about the Internet, it's that security is relative. Nothing is 
foolproof. What's secure today may be insecure tomorrow. Even companies 
like Microsoft can get hacked, badly. There are no silver bullets. The 
way forward is not more products, but better processes. We have to stop 
looking for the magic preventive technology that will avoid the 
threats, and embrace processes that will help us manage the risks.

Security and Risk Management
    Ask any network administrator what he needs security for, and he 
can describe the threats: Web site defacements, corruption and loss of 
data due to network penetrations, denial-of-service attacks, viruses 
and Trojans. The list seems endless, and the endless slew of news 
stories prove that the threats are real.
    Ask that same network administrator how security technologies help, 
and he'll discuss avoiding the threats. This is the traditional 
paradigm of computer security, born out of a computer science 
mentality: figure out what the threats are, and build technologies to 
avoid them. The conceit is that technologies can somehow ``solve'' 
computer security, and the end result is a security program that 
becomes an expense and a barrier to business. How many times has the 
security officer said: ``You can't do that; it would be insecure''?
    This paradigm is wrong. Security is a people problem, not a 
technology problem. There is no computer security product--or even a 
suite of products--that acts as magical security dust, imbuing a 
network with the property of ``secure.'' It can't be done. And it's not 
the way business works.
    Businesses manage risks. They manage all sorts of risks; network 
security is just another one. And there are many different ways to 
manage risks. The ones you choose in a particular situation depend on 
the details of that situation. And failures happen regularly; many 
businesses manage their risks improperly, pay for their mistakes, and 
then soldier on. Businesses are remarkably resilient.
    To take a concrete example, consider a physical store and the risk 
of shoplifting. Most grocery stores accept the risk as a cost of doing 
business. Clothing stores might put tags on all their garments and 
sensors at the doorways; they mitigate the risk with a technology. A 
jewelry store might mitigate the risk through procedures: all 
merchandise stays locked up, customers are not allowed to handle 
anything unattended, etc. And that same jewelry store will carry theft 
insurance, another risk management tool.
    More security isn't always better. You could improve the security 
of a bank by strip-searching everyone who walks through the front door. 
But if you did this, you would have no business. Studies show that most 
shoplifting at department stores occurs in dressing rooms. You could 
improve security by removing the dressing rooms, but the losses in 
sales would more than make up for the decrease in shoplifting. What all 
of these businesses are looking for is adequate security at a 
reasonable cost. This is what we need on the Internet as well--security 
that allows a company to offer new services, to expand into new 
markets, and to attract and retain new customers. And the particular 
computer security solutions they choose depend on who they are and what 
they are doing.

Detection and Response
    Most computer security is sold as a prophylactic: encryption 
prevents eavesdropping, firewalls prevent unauthorized network access, 
PKI prevents impersonation. To the world at large, this is a strange 
marketing strategy. A door lock is never sold with the slogan: ``This 
lock prevents burglaries.'' No one ever asks to purchase ``a device 
that will prevent murder.'' But computer security products are sold 
that way all the time. Companies regularly try to buy ``a device that 
prevents hacking.'' This is no more possible than an anti-murder 
device.
    When you buy a safe, it comes with a rating. 30TL--30 minutes, 
tools. 60TRTL--60 minutes, torch and tools. What this means is that a 
professional safecracker, with safecracking tools and an oxyacetylene 
torch, can break open the safe in an hour. If an alarm doesn't sound 
and guards don't come running within that hour, the safe is worthless. 
The safe buys you time; you have to spend it wisely.
    Real-world security includes prevention, detection, and response. 
If the prevention mechanisms were perfect, you wouldn't need detection 
and response. But no prevention mechanism is perfect. This is 
especially true for computer networks. All software products have 
security bugs, most network devices are misconfigured, and users make 
all sorts of mistakes. Without detection and response, the prevention 
mechanisms only have limited value. They're fragile. And detection and 
response are not only more cost effective, but also more effective, 
than piling on more prevention.
    On the Internet, this translates to monitoring. In October 2000, 
Microsoft discovered that an attacker had penetrated their corporate 
network weeks before, and might have viewed or even altered the source 
code for some of their products. Administrators discovered this breach 
when they noticed twenty new accounts being created on a server. Then 
they went back through their network's audit logs and pieced together 
how the attacker got in and what he did. If someone had been monitoring 
those audit logs--automatically generated by the firewalls, servers, 
routers, etc.--in real time, the attacker could have been detected and 
repelled at the point of entry.
    That's real security. It doesn't matter how the attacker gets in, 
or what he is doing. If there are enough motion sensors, electric eyes, 
and pressure plates in your house, you'll catch the burglar regardless 
of how he got in. If you are monitoring your network carefully enough, 
you'll catch a hacker regardless of what vulnerability he exploited to 
gain access. And if you can respond quickly and effectively, you can 
repel the attacker before he does any damage. Good detection and 
response can make up for imperfect prevention.
    And real security is about people. On the day you're attacked, it 
doesn't matter how your network is configured, what kind of boxes you 
have, or how many security devices you've installed. What matters is 
who is defending you.
    Prevention systems are never perfect. No bank ever says: ``Our safe 
is so good, we don't need an alarm system.'' No museum ever says: ``Our 
door and window locks are so good, we don't need night watchmen.'' 
Detection and response are how we get security in the real world, and 
they're the only way we can possibly get security on the Internet. We 
must invest in network monitoring if we are to properly manage the 
risks associated with our nation's network infrastructure.

Insurance
    Eventually, the insurance industry will subsume the computer 
security industry. Not that insurance companies will start marketing 
security products, but rather that the kind of firewall you use--along 
with the kind of authentication scheme you use, the kind of operating 
system you use, and the kind of network monitoring scheme you use--will 
be strongly influenced by the constraints of insurance.
    Consider security, and safety, in the real world. Businesses don't 
install building alarms because it makes them feel safer; they do it 
because they get a reduction in their insurance rates. Building owners 
don't install sprinkler systems out of affection for their tenants, but 
because building codes and insurance policies demand it. Deciding what 
kind of theft and fire prevention equipment to install are risk 
management decisions.
    The risk taker of last resort is the insurance industry, and 
businesses achieve security through insurance. They take the risks they 
are not willing to accept themselves, bundle them up, and pay someone 
else to make them go away. If a warehouse is insured properly, the 
owner is significantly less worried about fire or other disasters. 
Similarly, if a network is insured properly, the owner is significantly 
less worried about the hacking risks.
    This is the future. Concerned about denial-of-service attacks? Get 
bandwidth interruption insurance. Concerned about data corruption? Get 
data integrity insurance. (I'm making these policy names up, here.) 
Concerned about negative publicity due to a widely publicized network 
attack? Get a rider on your good name insurance that covers that sort 
of event. The insurance industry isn't offering all of these policies 
yet, but it is coming.
    The effects of this change will be considerable. Every business 
will have network security insurance, just as every business has 
insurance against fire, theft, and any other reasonable threat. To do 
otherwise would be to behave recklessly and be open to lawsuits. 
Details of network security become check boxes when it comes time to 
calculate the premium. Do you have a firewall? Which brand? Your rate 
may be one price if you have this brand, and a different price if you 
have another brand. Do you have a service monitoring your network? If 
you do, your rate goes down this much.
    This process changes everything. What will happen when the CFO 
looks at his premium and realizes that it will go down 50% if he gets 
rid of all his insecure Windows operating systems and replaces them 
with a secure version of Linux? The choice of which operating system to 
use will no longer be 100% technical. Microsoft, and other companies 
with shoddy security, will start losing sales because companies don't 
want to pay the insurance premiums. In this vision of the future, how 
secure a product is becomes a real, measurable, feature that companies 
are willing to pay for...because it saves them money in the long run. 
Already some insurance companies are starting to do this.
    Other systems will be affected, too. Online merchants and brick-
and-mortar merchants will have different insurance premiums, because 
the risks are different. Businesses can add authentication mechanisms--
public-key certificates, biometrics, smart cards--and either save or 
lose money depending on their effectiveness. Computer security ``snake-
oil'' peddlers who make outlandish claims and sell ridiculous products 
will find no buyers as long as the insurance industry doesn't recognize 
their value. In fact, the whole point of buying a security product or 
hiring a security service will not be based on threat avoidance; it 
will be based on risk management.
    And it will be about time. Sooner or later, the insurance industry 
will sell everyone anti-hacking policies. It will be unthinkable not to 
have one. And then we'll start seeing good security rewarded in the 
marketplace.

Law Enforcement
    The primary reason we feel safe walking the streets of our country 
is because criminals are arrested and prosecuted. In areas where 
prosecution is less common, the streets are more dangerous. In 
countries where prosecution is rare or arbitrary, criminals run 
rampant. This same thinking must be applied to the Internet.
    Right now, most criminal hackers can operate with impunity, and 
they know that. Most Internet crimes are never discovered by the 
victims. Of those that are known, most are covered up. Of those that 
are made public, most never result in arrests, let alone convictions. 
The Internet is still a lawless environment.
    This needs to change. Prosecution and conviction of criminals has 
two effects. One, it sends a clear message to everyone else. And two, 
it takes the convicted criminals out of circulation during their 
incarceration. Both of these things act as a deterrence.
    One of the best things that happened for Internet security in the 
year 2000 was the series of high-profile prosecutions and convictions. 
This has had a visible chilling effect on some hacking groups. But more 
is required.
    This is not easy. The Internet was not designed to aid forensic 
analysis, and many types of hacks are not currently traceable. 
Jurisdiction is also a problem; our criminal justice system is not 
designed to deal with criminals who can be anywhere in the world while 
attacking someone in another part of the world. But we need to do it.

Conclusion
    Network security risks will always be with us. The downside of 
being in a highly connected network is that we are all connected with 
the best and worst of society. Security products will not solve the 
problems of Internet security, any more than they solve the security 
problems in the real world. The best we can do is to manage the risks: 
employ technological and procedural mitigation while at the same time 
allowing businesses to thrive.
    Security equals vigilance, a day-to-day process. There are hundreds 
of technological solutions, but none that will ultimately fix the 
problem. It's been thousands of years, and the world still isn't a safe 
place. There is no way to ``solve'' the burglary problem. There is no 
device you can buy to prevent murder. No matter how fast technology 
advances, guards and alarms are still state-of-the-art.
    The key to effective security is human intervention. Automatic 
security is necessarily flawed. Smart attackers bypass the security, 
and new attacks fool products. People are needed to recognize, and 
respond to, new attacks and new threats. It's a simple matter of 
regaining a balance of power: human minds are the attackers, so human 
minds need to be the defenders as well.
    I believe that the Internet will never be totally secure. In fact, 
I believe that the Internet will continue to get less and less secure 
as it gets more interesting, more useful, and more valuable. Just like 
the real world, security is a process. And the processes of detection 
and response, risk management and insurance, and forensics and 
prosecution will serve the Internet world just as they serve the real 
world.

    Senator Wyden. This has been a superb panel. Having 
specialized in these issues in health for a number of years, I 
have gone to a pretty hefty number of panels, and this has been 
as good as it gets, and I really thank you for it.
    Mr. Schneier, what was interesting about your last comment, 
and I am going to have questions for all of you, is that in 
your past writings, and talks in the past, you had usually 
raised as the centerpiece of an effort to deal with security 
this question of alarms and guards. What you have essentially 
done today is added a new dimension, and that is that there 
really ought to be consequences for important players in the 
economy if they are providing insufficient efforts to address 
security.
    That is something I had never thought of, and I will want 
to explore it with you, because it raises a number of 
interesting questions, not the least of which is if you are 
going to have consequences, you have got to have some standards 
by which you even look at consequences. I think your point 
about cyber insurance is a very intriguing one, and the 
question about at what point would people be held liable for 
insufficient attention to security is certainly an area we will 
want to explore.
    Let me start with the three of you by putting this in the 
context of Jane and Joe, the typical consumer who is using 
their computer. They probably listen to this, and they say to 
themselves, I do not have any secrets on my computer. I am not 
doing any multimillion dollar commercial transactions. Who 
would want to steal my recipes and hear about the text of a 
letter that I sent to Aunt Gertrude? Why should I be concerned 
about something like this? What would be the response of the 
panel members, just starting down the line with you, Dr. Cerf.
    Dr. Cerf. Well, I hope we do not end up with a hear no 
evil, see no evil, speak no evil situation. This is a very 
alarming observation you have just made, because it is very 
common, and it is not just Joe and Jane, it is Frank, who runs 
the computer center over at the university, who says, we do not 
have any secret on our machine. Forget the one with the student 
grades and so on. This is the R&D machine, but there is nothing 
secret on it, and so I do not really have to protect it very 
much.
    The problem is that that machine becomes a weapon. It 
becomes a platform. If it can be penetrated and Trojan horse 
software placed on it, or what some people call zombie 
software, that software can later be activated by a hacker and 
used as a weapon against some other target in the network, and 
so the failure of a person to observe reasonable security 
practices, in fact, endangers and hurts everyone.
    Now, I am not so foolish as to imagine that we will get 
everyone to cooperate. In fact, security is inconvenient, and I 
think it is sort of an unfortunate binding there, that if it 
was not inconvenient, it would not work very well, so we can 
encourage good practices, we can explain to people why they 
should have passwords that are not words, but are, you know, 
some kind of a pronounceable sequence of vowels and consonants 
with some numbers thrown in somewhere as well.
    Or we can introduce technology that creates what are called 
nonreusable passwords using public key cryptography as a tool, 
but we need to have the manufacturers of the software and 
hardware help us, perhaps by releasing machines configured with 
more security in them, and you have to deliberately decide to 
reduce the level of security so that you know that you are 
doing that.
    Sun Microsystems tried that, and to be honest it did not 
work very well. the customers did not like it, because it 
required more work, and they all decided they wanted to reduce 
their level of security in the machine from the buttoned-up 
form it was in, so the answer is, we need a lot of education 
for people to cooperate, and maybe we need simpler practices to 
make security easier.
    Mr. Miller. Let me go back one question. First, on 
insurance. There already are insurance companies doing what you 
and Mr. Schneier have discussed. AIG Insurance, for example, is 
now promoting very actively to its customers that they will 
actually send out and do a risk assessment to help you fortify 
your information security practices, and that will affect the 
risk premium you end up paying, so it has not become as 
ubiquitous as Mr. Schneier is suggesting. I agree it is a good 
idea. It is in its formative stages, beginning out there, and 
of course AIG is one of the, if not the largest insurance 
company in the world, so it will have an impact.
    To go back to your Joe and Jane question, I think the short 
answer is again an issue that is very near and dear to your 
heart, which is privacy. When we go out and do surveys, whether 
ITAA does them or other people, we find two-thirds of 
Americans, whether you are talking about doing business on the 
Internet, or whether you are talking about e-government, are 
concerned about privacy/security, but when you really start to 
bore down into their answers, into the second-level questions, 
what they are really worried about is security, whether they 
give credit card information over the Internet to a vendor, 
whether they pass that information to a Government agency, is 
someone going to steal that information, either while it is in 
transmission, or when it has arrived at its ultimate 
destination point.
    So the reason the individual Joe and Jane should be 
concerned about it is, we know they are already concerned about 
their privacy on the Internet. Every survey shows that Some say 
70 percent, some say 80 percent. My question is, why aren't 100 
percent of people? It seems like they should be concerned about 
their privacy on the Internet, but the real solution in most 
cases is security.
    If you do not have security, if that information you are 
transmitting over the Internet or to your friends, or through 
I-messaging, whatever you may do, can be easily intercepted, 
or, when it arrives at its destination, if someone can easily 
hack into that data base, as has been done--for example, even 
the Davos Forum had sensitive information of some of the world 
leaders stolen from that data base. That is what really should 
begin to strike Joe and Jane to understand why this is so 
important, so they should be just as concerned as a Member of 
the U.S. Senate or anybody else about this issue.
    Dr. Cerf. Harris, don't you think we should also remind 
people that it is not just a matter of technology and security. 
If a company successfully receives personal information over an 
encrypted channel that has all been locked up tighter than a 
drum, the machine itself is well-protected, but the company's 
policies are to release the information to anybody that it 
chooses for business purposes, all of a sudden, all the 
technology in the world did not satisfy and solve and protect 
people's privacy, and so there are some decisions that get 
made, policies that are set that are independent of the actual 
technology that we also need to be aware of.
    Mr. Miller. Absolutely. Again, Senator Wyden is a leader in 
this, so I am not telling him anything he does not know, but 
obviously we believe that full disclosure by all vendors online 
is absolutely essential. If anybody violates that full 
disclosure, the FTC or the State Attorneys General should 
prosecute them, and third we are very excited about the new 
technology coming online, the P3P, the platform for privacy 
protection, which will enable basically every consumer sitting 
at his or her browser to be able to preset a lot of his or her 
privacy preferences.
    Senator Wyden. We will not start to reiterate last week's 
privacy hearing. However, part of my concern on the privacy 
debate, not unlike the security issue, is that unless you can 
figure out a way to come up with a practical, enforceable set 
of policies you have got a very difficult situation where the 
vast majority are trying to subscribe to the rules and the 
principles, and a handful of scofflaws are inflicting great 
damage.
    We will not go down the privacy route for the purposes of 
this afternoon. Mr Schneier, your response to Jane and Joe 
sitting there following this and saying this really did not 
apply to me.
    Mr. Schneier. If you think about it, pretty much every law 
we have is subject to the bad actor problem, whether it is our 
murder statutes or anything, so I think we are stuck with that. 
It is an interesting question, why the average person should 
care, because in a lot of ways the average person does not. I 
mean, if you ask them, are you concerned about security, they 
will say yes. If you ask them, are you willing to be 
inconvenienced to get security, they will most likely say no, 
so people do care, but a lot of it is very superficial caring. 
The reasons stated here are about the right ones.
    The fact that your computer could be a launching pad for 
other attacks, so I have my computer at home, I do not care if 
someone breaks into it and then attacks some large e-commerce 
site. This happens again and again. It used to make the papers 
a year ago, and now it is business as usual.
    There is the notion of identity theft. As more and more of 
our identity goes online, then identity theft becomes easier 
and easier. As more and more abilities go online, then identity 
theft becomes more dangerous and more powerful, and it is a 
large growth area in crime, and breaking into people's 
computers to steal their identity, their credit card numbers, 
their birth date, their address, whatever is needed to get 
credit issued in their name, that is a big worry, and there is 
privacy. People are concerned about their information getting 
leaked.
    I guess we saw a couple of weeks ago, or last week, Eli 
Lilly and Company leaked a bunch of names of drug users out in 
the open, and this kind of thing is a disaster, and this is why 
the Europeans have very strong privacy laws. We do not. We rely 
on companies to sort of do whatever they want, and they inform 
you, and maybe they do, maybe they do not, and maybe you can 
understand what they say, but the information is collected and 
stored, and I worry about this, because once the information is 
stored, it is vulnerable.
    If, indeed, people are concerned about privacy, the 
information should not be collected in the first place, because 
now, once it exists--I mean, the two-year-old e-mail appears. 
The Web site is broken into. So you take precautions, but they 
do not actually work, so I think my feeling is people are less 
concerned than they should be because they do not understand 
what is going on.
    The Internet is very, very new. Our intuitions do not 
really apply. We think that e-mail is like a chat, is like a 
conversation, until old e-mail shows up, and maybe shows up in 
a court trial. We do not know what standards to hold different 
things to.
    Senator Wyden. Since all of you have said Jane and Joe 
ought to be concerned, why don't each of you state what you 
would say would be the seven or eight biggest and most 
important specific security risks for the typical consumer. You 
have already mentioned e-mail, credit card, and identity theft, 
but I might have missed some other ones. Dr. Cerf, why don't 
you start.
    Dr. Cerf. I am trying to do a bubble sort in my head here. 
The one that comes to mind, the top, frankly, is password 
theft, because people do such a bad job of picking their own 
passwords, and they often will pick one and stick with it 
forever and ever, and never change it.
    Senator Wyden. My staff always wants me to use Boss, and 
that always seems to me to be a little obvious.
    [Laughter.]
    Mr. Schneier. As long as you trust your staff, that is 
fine.
    [Laughter.]
    Dr. Cerf. I would say, of the various things that allow a 
hacker to get into an account, that is probably the most 
obvious, and getting people to choose different passwords for 
all the various accounts they have to use is very hard. What do 
they do, they cannot remember them all, so they write them 
down, and they stick them on a little post-it next to the 
machine, so we could help them, I think, with better 
technology.
    Something that Bruce Schneier mentioned is, we have not 
really engaged public cryptography very well. We do not have 
that system. If we had that technology in place, we could 
probably allow people to achieve much better security. They 
would not ever use reusable passwords. They might have to carry 
a small device that contains some digital information in it. Of 
course if they ever lost that device, that is their identity 
now, so we have to protect that, so there is some recursion 
here, but I would go after that as one place where Joe and 
Jane----
    Senator Wyden. So let us see, we have got e-mail, credit 
cards, identity theft, passwords--anything else that you think, 
Dr. Cerf. Did you not mention something about public access to 
Government documents? Were you talking about mortgages, and 
that sort?
    Dr. Cerf. This is one of those tension things where being 
able to get to what should be and is legally public information 
is very attractive, but many people do not expect their house 
designs, for example, to become visible. They had to be 
examined for meeting the codes, for example, and so they are on 
record, but one does not think the same way about those plans 
and designs and details until you realize they might be online 
and available to anyone, including the criminal who is figuring 
out how to break into your house.
    I do not know what to do about that, to be quite honest 
with you, other than just perhaps say that access to them has 
to be more restricted than it is today.
    Senator Wyden. And the reason that you do not is, you see 
the public interest in the disclosure. For example, if you were 
to look at a United States Senator's financial disclosure form, 
and various other kinds of forms, we could be very certain that 
there is a strong public interest in those kinds of materials 
being online, and what you are saying is that we are not yet in 
a position to ensure that those are secure.
    Dr. Cerf. I think that we also have not fully internalized 
what it means to have so many of these Government records 
online, readily available and sorted through, and perhaps 
collated in ways that we could not do before.
    Senator Wyden. OK. Mr. Miller.
    Mr. Miller. I would add something Mr. Schneier mentioned, 
which is just personal communications. Again, people do not 
realize that--because it is digital, they do not understand 
that there is a nondigital form of that communication. They may 
send someone an e-mail, and they think somehow it vaporizes, 
the same way as whispering to them in the back of the room.
    Well, it is not. Those personal communications in fact do 
exist some place. In many cases, they exist many places, and 
those are showing up in surprising places, in courts of law, in 
the press, when people assume that somehow that thing just 
disappears, so I think people have to be much more sensitive to 
those communications.
    However, Mr. Chairman, I would say, while I appreciate your 
focusing on Joe and Jane, I do not think we as an industry want 
people to think that the individual citizen has a tremendous 
amount of personal responsibility that requires a lot of time 
and effort on his or her part in order to be safe and secure on 
the Internet, any more than when we pick up the telephone, that 
we think they have to bring out some kind of special encoder 
before we have a telephone conversation, or before we get in 
our car every day we have to spend a lot of time putting 
special devices in.
    That is the tradeoff that you were suggesting before. 
Everyone wants to go as fast as a Ferrari, but we all want to 
have a Brinks truck safety at the same time, and from the 
perspective of the individual consumer, we do not want to tell 
that individual consumer that he or she cannot go very fast on 
the Internet because we have added all kinds of burdens to the 
use of the Internet in the name of security, so that is the 
constant challenge we have, is to make those security features 
as easy and as ubiquitous as possible, not so complicated 
people are afraid of using it altogether, or get so frustrated 
using it that they will not use it at all.
    Senator Wyden. Would there be a world where there could be 
more Government spending, and we could keep the Government 
deficit down, and a world where there could be more security 
and lots of convenience.
    Mr. Schneier. With world peace.
    Senator Wyden. Did you want to add anything else?
    Mr. Schneier. Yes. Actually, I sort of agree with what Mr. 
Harris said. There was a security disaster that happened a few 
months ago, a serious one. My mother got a computer. Actually--
this is on the record, right?
    Senator Wyden. She is listening.
    [Laughter.]
    Mr. Schneier. There are security practices that there is no 
way in the world she could be expected to do, will do, will 
understand doing. It is just too different, so we cannot expect 
the average person to take this matter into their own hands, 
because that is the average person.
    So what other risk--I tried to put them in some kind of 
order. You talk about passwords. Passwords are not in 
themselves--some passwords are an entre into getting something 
else, so I do not like saying that your password is a 
vulnerability. Your password is the means by which other things 
are gotten at, and it is stuff we talked at.
    It is basically private information, whether it is personal 
information about yourself, about your life, about things you 
do, or health information, what your health is, and as we say 
this, you can imagine who either in industry or friends and 
colleagues or enemies might want this information, what they 
might want to do with it. It is not just credit card numbers, 
it is credentials.
    Credit card numbers are a credential by which you buy 
something, and it is sort of--under that umbrella of 
credentials is not only credit card numbers, it is your 
account, in one click. I buy stuff on Amazon with one click. I 
do not type in my credit card number, and so that password I 
use to get into Amazon is as valuable as my credit card numbers 
as far as Amazon is concerned. Different accounts I have, maybe 
on eBay or other, maybe--there are premium news services I 
subscribe to. These are all credentials.
    Political speech in the United States, that is not a 
problem. In many countries, political speech is a big deal, and 
needing to keep that private is a matter of life and death.
    One of the major gay and lesbian Web sites regularly has on 
their Web site people who would be put to death if the fact 
that they were on the Web site became known, and there are 
countries where that is illegal, punishable by death.
    Going back to commerce, it is purchasing patterns. If you 
remember, when Judge Bork was not confirmed for the Supreme 
Court, one of the local D.C. papers pulled his videotape 
rentals, records from whatever store he went to. The hope was 
that they were exciting, but very quickly Congress passed a law 
making those records private.
    More generally, your purchasing patterns, whether they are 
books, whether they are videos, your browsing patterns, what 
Web sites you look at, how often you spend time there, this is 
all information that if I told my mother that anybody could 
find out that, telemarketers could learn and could exploit, she 
would not be happy, because she expects, just as when she walks 
into a bookstore and pays for her book with cash, she is 
anonymous. She wants to be able to go to a Web site, and for 
that to be anonymous, and that is what is expected.
    Senator Wyden. In a recent news article, gentlemen, 
entitled, ``Microsoft Outlook Vulnerable to New Attack,'' the 
author makes a statement that there is an e-mail software flaw 
that, in his words, could enable an attacker to take full 
control of a victim's computer. In your view, is that an 
overstatement? Is that far-fetched? Dr. Cerf.
    Dr. Cerf. I am not going to be able to respond fully, 
because I do not have all the details of that particular 
vulnerability. Mr. Schneier might be able to do that. But on 
the face of it, it is a pretty serious problem, and it is a 
classic problem. The word complexity has been used more than 
once in today's hearings, and by any reasonable stretch, that 
software and the rest of the software ensemble that makes up 
the e-mail system of the Internet is large and complex and is 
subject to holes.
    I will say that a responsible company would do two things 
in providing new software for its customers. One thing, of 
course, is to add new features and services that the customers 
want. That is good business practice, but the second thing is 
to make sure that vulnerabilities have not been opened up 
either by simple bugs or by abuse. Sometimes you can make very 
powerful software. Some things you can do amazing things with, 
but that same tool could become an enormous vulnerability, 
because someone could exploit it.
    I think software companies have to pay attention to both 
sides of that coin, and I do not believe in general they all 
do.
    Senator Wyden. Mr. Miller.
    Mr. Miller. I think that is a gross overstatement, if not 
an outright falsehood. Software companies, including Microsoft 
and others, focus a great deal on their information security 
because at the end of the day their customers would not 
tolerate having to operate on the Internet if they believe 
there are flaws that are constantly on the system that are not 
being attended to.
    However, I would agree with what both Dr. Cerf and Mr. 
Schneier said. There is a very complex world, and in a sense 
the information security challenge is, it is an arms race. 
Every time a company comes up with a solution to a particular 
flaw, or problem that is identified, then the bad guys go out 
there and try to find other flaws, or other problems. It is not 
a fixed situation, as it is in the physical world, where once 
you have put your fence in and bought your dogs and electrified 
your operation, you are pretty much comfortable with where you 
are.
    So it is a constant challenge. That is why companies like 
Microsoft and others devote so many of the dollars resources to 
fighting this challenge, and why they are going to have to be, 
as Mr. Schneier said, eternally vigilant, otherwise we are 
going to constantly have these problems.
    Senator Wyden. I think that is a good point. I know there 
is a hack attack Web site, and a variety of places where people 
look constantly to do just exactly what you are talking about, 
which is to move several steps ahead. I very much appreciate 
that comment.
    Mr. Schneier.
    Mr. Schneier. I am a little less optimistic. Taking 
Microsoft as an example, every time there is a new version of 
Windows, they will tout how much they spent on security, how 
much time, how much effort.
    For Windows NT, the number was 500 man-years of testing, 
which includes security, and this was the most secure operating 
system ever, and every time the press asks me what I think of 
that, and every time I say, this will be the least secure 
operating system Microsoft has produced, and every time that 
happens to be true. As it gets more complex, as it gets bigger 
it gets less secure, and now they are touting the new version 
of Windows, and all the security in there, and I believe we 
will come back here in three years, and we will see it as the 
least-secure operating system they have ever produced.
    You mentioned the news report, and I actually do not know 
which one you are talking about. If you actually follow this, 
there are 50 to 60 new vulnerabilities discovered per week. 
Some of them are minor and obscure, some of them are as bad as 
the news headline you read indicates.
    There are regularly vulnerabilities in that Microsoft 
product that are that severe. There are regularly 
vulnerabilities in other products that are that severe. This is 
software This is the way software works. This is the way 
software is developed. It is actually a very tough problem. As 
a business, the way software is secured is the notion of, you 
throw it out there, hackers find these vulnerabilities, they 
issue them to the press, or maybe tell the vendor, and then the 
vendor patches them.
    Now, it is an interesting notion--and it used to sort of 
work, it does not any more, and again it is because of 
complexity. There might be a dozen or so patches that come out 
every week in major software products, and maybe half a dozen 
apply to you. This means every day you are expected to install 
a patch in your network, and you are actually expected--many 
news reports read on the order of, his patches were not up to 
date, he deserved to get hacked, which to me is very much 
blaming the victim. You know, she walked down that darkened 
street. She deserved to get mugged.
    I do not buy it any more. The Net is getting so complex 
that this notion of patching is failing. We are losing ground, 
and we see lots of hacks that happen based on vulnerabilities 
that have been patched. There are a plethora of worms around 
Christmastime that attack versions of Linux that should have 
been patched. The FBI announced, I think in March, the East 
European thieves who were breaking into Web sites stealing 
credit card numbers, and extorting companies. Those are 
vulnerabilities that should have been patched a year earlier.
    One of the first big credit card thefts was CD Universe. 
This was back when these things made the newspapers. That was a 
vulnerability that was patched a year and a half ago. It was a 
Microsoft vulnerability, and the company did not install the 
patch.
    A number of the Government break-ins are a patch that 
should have been installed, so there are vulnerabilities that 
are that serious, and they are out there, even if they are 
patched. Companies are still vulnerable three years later.
    Senator Wyden. That is a good response. I was struck again, 
in reviewing some of the latest literature, that there does 
seem to be some evidence that people actually target patches, 
because they see that as a weak point. I appreciate your 
comment.
    Mr. Miller wants to respond.
    Mr. Miller. One thing Mr. Schneier said earlier I do 
disagree with slightly, although I do not think it undermines 
the fundamental point all three of us are making, is that he 
said something to the effect of by no metrics are we getting 
more successful than we were, because if you look at all of 
these numbers in absolute terms, the amount of dollars stolen 
reported by the Computer Security Institute, the number of 
attacks that take place, et cetera, they have all been going 
up, they are trending up, and that is certainly accurate, but 
what Mr. Schneier's comment does not take into account is the 
denominator.
    We are talking about a tremendously widened use of the 
Internet, and so I do not know that it is true--in fact, it 
strikes me probably is not true, that as a percentage of all 
financial transactions on the Internet today, we are doing a 
worse job than we were three years ago of preventing credit 
card information from being stolen, for example, so it is a 
little hard, I think, to say that under no metrics are we doing 
better.
    I am actually inclined to think that as a percentage, 
because the Internet itself and all of these governmental uses 
is expanding so dramatically, that we can get carried away by 
saying, well, last year it was $300 million that was stolen 
according to the Computer Security Institute, this year it is 
$400 million.
    First I guess that number is way low. That is the only 
people reporting incidents. That probably does not take into 
account the huge number of people who never report the 
incidents that occur anyhow, but even given that, I think in 
terms of as a percentage of overall transactions we probably 
are actually doing better, not worse.
    Again, it does not undermine the fundamental point that 
information security needs to be a higher priority.
    Senator Wyden. We are about to trigger a very vigorous 
debate now.
    Mr. Schneier. Actually, he is basically right.
    Senator Wyden. Dr. Cerf wanted to comment also. I wanted to 
recognize, in fact, before we have your response, that Senator 
Nelson has joined us. He and I go back some 20 years, since our 
days in the House, when I had a full head of hair and rugged 
good looks.
    We are so pleased that Senator Nelson has joined us on this 
Committee. He has a long interest in technology and science 
questions. Bill, would you like to make any comments?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. I should have been here two hours ago if 
the airlines had done their job.
    Senator Wyden. We can talk about the airline passenger bill 
of rights another day.
    Senator Nelson. As a result of my experience today.
    Senator Wyden. We are glad you are here.
    Dr. Cerf, on this point that we are exploring with respect 
to Mr. Miller's last comment----
    Dr. Cerf. Actually, I had two comments, maybe three now. As 
of this morning, I had a full head of hair, but in the process 
of fighting all the problems of computer security I no longer 
do.
    [Laughter.]
    Dr. Cerf. Mr. Harris' comments draw to mind the phrase, 
your mileage may vary, and the degree of security that we 
achieve will probably vary from one company to another and one 
installation to another. I am a kind of techno-optimist, to try 
to counterbalance Mr. Schneier. However, his point is extremely 
well-taken.
    No matter how careful you are to fix problems in software, 
and there always will be problems, getting people to implement 
them is hard, and so one begins to wonder--and this is the 
optimistic side of me. One wonders if we cannot do more to 
automate the process of keeping the software up to date and 
repaired.
    It is not a trivial exercise, and we had at least one 
embarrassing incident where a person other than Microsoft 
registered the ability to digitally sign some code that looked 
like it came from Microsoft. I do not think anything bad 
actually came of it, but the potential was pretty severe.
    So looking for ways to safely automate the process of 
keeping software up to date would be a very attractive goal if 
we could figure out how to do it.
    Senator Wyden. That certainly is sensible from my vantage 
point, because what it is about is ensuring that, at every 
step, we are minimizing risk. What we are trying to do is say, 
these are the tools that we have available to us at this time, 
recognizing that it is not a risk-free world. It is not a risk-
free world online, and it is not a risk-free world offline. In 
that sense, there is some common ground with the three of you.
    Let me turn now to the business side specifically, because 
I tried to talk initially about the typical consumer. When 
determining whether or not to conduct a transaction online, 
gentlemen, how can an e-consumer judge whether a business is 
managing risk properly? As of today, Dr. Cerf, how does a 
consumer make that assessment?
    Dr. Cerf. I do not think there are any more or better 
metrics for users today than there were pre-e-commerce. One 
wonders--for example, I buy merchandise from some store, how do 
I know that the store has tried to make sure the merchandise is 
of good quality or not? Well, I do not have a good way to know 
that, but I consult Consumers Review, and I consult my friends, 
and I consult the business pages, I consult the Better Business 
Bureau.
    I suspect that tools of that ilk will be common for the e-
world, just as much as they have been helpful in the real 
world, but I do not have a finger to point.
    There is one interesting thing, however. Look at eBay, an 
interesting lesson that we can learn from that. The providers 
of goods, and the purchasers of those goods, are just ordinary 
folks like you and me and they encompass the full range of our 
human race, including people who are cheating and people who 
are quite sincere. eBay has built in a feedback mechanism that 
lets people know what others' experiences have been.
    I am not sure that that can apply in all cases, but the 
notion of consumer feedback, visible to other consumers, is 
pretty fascinating to me. I think there is one company called 
Bizrate that is invited by some companies to interrogate users 
after they have completed the transaction, or a consumer, to 
find out whether the consumer was satisfied, and if not, why 
not, and that information is reported back to the company. It 
might be reported by Bizrate back to other consumers.
    Senator Wyden. In effect, it puts the company on its toes.
    Dr. Cerf. Exactly.
    Senator Wyden. Mr. Miller.
    Mr. Miller. We are very fortunate in the United States in 
these early days of the Internet that financial intermediaries 
are actually assuming a tremendous amount of the financial 
risk, and by the way, this is not true outside much of the 
United States, but if you, as a consumer, go online and order 
something online using your credit card, and for some reason 
the process falls apart, you do not get what you wanted, or you 
cannot settle, usually the credit card company will have your 
maximum liability at $50, or in some cases liability at zero, 
so in a sense the risk has been transferred there by the credit 
card companies to themselves in order to encourage you to go 
online, and even eBay and some of these other online auction 
services are now going in that direction.
    They in a sense escrow the money for you at certain levels. 
I believe it is $250, so should that product you were expecting 
not be what was advertised, instead of a Mickey Mantle 
baseball, that it is just a baseball, that they bought at 
Rawlings that day, that your check which you sent for $5,000 
does not get forwarded on to the person who sold you this under 
fraudulent circumstances, and so we are very fortunate to have 
that kind of protection for people in the online world.
    Nevertheless, even with those protections, there still is 
fraud on the Internet, as Dr. Cerf said. There still are 
problems on the Internet, and I think what we need to focus on 
here, Mr. Chairman, is much more vigorous enforcement by our 
law enforcement agencies, the Federal Trade Commission, State 
Attorneys General, and I have already seen some references by 
the new Chairman of the FTC, who I am supposed to be meeting 
with later this afternoon, that that is one of his priorities.
    Third, I very much think the other point Dr. Cerf made 
about these ratings systems are very, very important. If you go 
on to some of the very popular Web sites like Yahoo, and they 
will refer you to a list of merchants from whom you can buy 
certain electronic products, or CDs, whatever it is online, 
they have a very sophisticated rating system that they monitor 
very carefully, because they feel they are tied to that rating 
system.
    Now, you as a consumer may choose to ignore that rating 
system that you do not care, you just want the lowest price, 
and even though Yahoo has not given that any rating based on 
feedback of its customers, you may choose to buy anyhow, but at 
least there is an attempt on the Internet to constantly create 
that loop, and one of the beauties of the Internet is that you 
as a consumer can instantly change, if you are unhappy with 
Barnes&Noble.com you can switch to Amazon.com in a second. You 
do not have to worry about whether one is 5 miles away, as 
opposed to one being 50 miles away. Distance is now gone on the 
Internet, and one is just as close as another, and so that is 
another incentive that acts as a check on consumer problems.
    But again, I do not think we should pretend there is no 
consumer fraud. What we need to make sure is, the Government 
has the appropriate authority and the appropriate resources to 
go after those cases of fraud.
    Senator Wyden. Mr. Schneier.
    Mr. Schneier. What I first wrote down when you asked the 
question is, he is screwed. Technically, that is true. There is 
no technical way the consumer can figure out whether this 
particular vendor is reputable, will protect their privacy, 
will sell them good products, will uphold their end of the 
contract. The mechanisms people use are the same as they use in 
the real world. If you listen to what Mr. Miller said, it was 
actually very interesting. The credit card company is taking 
the liability, and that liability transfer acts as a substitute 
for good security.
    If the credit card company takes liability, I do not care 
if the vendor behaves rationally. I could buy something online, 
they do not deliver it, I call my credit card company up, and 
they reverse the charge. I mean, I have inconvenience, but 
there is an example of a risk management way of solving a 
security problem that did not involve any technology, and we do 
that in the real world all the time, and we are going to do 
that online.
    Dr. Cerf talked about--the name of the thing he talked 
about is reputation. We use reputation a lot when we make 
buying decisions. We make all sorts of social decisions. When I 
walk into a restaurant I actually do not check the health 
certificate. I assume that it is going to be a good restaurant. 
Maybe I hear from friends. The reputation of the restaurant 
will precede it, and occasionally I get it wrong. I have gotten 
sick from meals. But the social reputation is extremely 
important.
    This is slightly different on the Net, because the Net is 
global, and there are more companies out there. Only the 
biggest brands have their reputation. There are millions of 
little brands, but some of them are aggregating into larger--I 
mean, you mentioned the Yahoo brands. Amazon has a similar 
program, where individual companies go under their rubric and 
can be an Amazon trusted seller. I forget the name it has.
    So these are the sorts of methodologies. One of the 
differences is, in the real world, when I walk into a store, 
let us say I walk into a McDonald's, I know it is a McDonald's. 
I see the signs. It looks like a McDonald's. On the Net, it is 
much easier to forge trade dress.
    You can set up a Web site, I can set up a Web site that 
looks exactly like eBay. It is a perfect replication, and you 
could come to it, and you would not know. I would be stealing, 
basically, all of eBay's reputation in an effort to defraud. 
This has happened. It is not common. I suspect it will get more 
common, because you do not have the physicality you have in the 
real world.
    So last, I would definitely want to echo what Mr. Miller 
said on enforcement. To me, this is important. I talk about 
prevention, detection, and response. The feedback of the 
mechanism for all of that is deterrence.
    One of the best things to me about the year 2000 are in 
this country the very high-profile arrests and convictions. The 
Net is still very much a lawless society that you can hack with 
impunity. The odds of you getting caught are infinitesimal, and 
to change it, we need to bring the rule of law to the Net, and 
the way you do that is, after detection and response, after the 
alarm goes off, forensics, prosecution, conviction, and all of 
that will give us a safer Net.
    We have had problems over the years. we have had 
overreaction. We have had punishments that do not fit crimes, 
but to me enforcement is extremely important in giving us a 
safe world. That is why I am safe when I walk around the 
streets, not because I am wearing body armor, and not because I 
have a bodyguard, and not even because I have an alarm, but 
because I know that the police are out there, and the police 
have taken crime off the streets.
    Dr. Cerf. There are a couple of observations. One is, the 
antidote for bad information in the network environment is more 
information, and when you discover a hoax or a fraud, there are 
Web sites out there that make--I do not know that they make a 
business, but they make a practice of supplying information 
about those hoaxes and frauds, and sophisticated users who know 
about that can go to them and check. I imagine any number of 
people in this room have received the infamous variations on 
Notes from Nigeria, describing the $25.6 million which is left 
in some bank account which is being transferred out of the 
country.
    Mr. Schneier. You know that fraud is a few hundred years 
old. It is called Spanish prisoner. There is nothing new on the 
Net.
    Dr. Cerf. In any case, the knowledge that that is a hoax is 
a helpful thing.
    The other thing I wanted to raise a little caution about, 
the enforcement idea. It is possible to go overboard and try to 
do the impossible. At one point, a person whose name I will not 
mention in a fairly public setting wanted me to find a way to 
ring a bell on the routers every time a packet carrying 
copyrighted material passed through the router.
    I had two reactions to that. One is, the bell might be 
ringing incessantly and you would not know what to do about it, 
but--so much for Mr. Schneier's alarm, but the second point is 
that you might not even know if something was copyright, 
because when you are looking at the packet level you might see 
just the words, ``call me Ish,'' and the next packet would say, 
``mael,'' and if you could put them--you might know that is the 
beginning of Moby Dick, but even if you figured that out down 
at the packet level, you would not know whether the party that 
was sending the object had the right to do it or not, and 
certainly when you are moving trillions of packets through the 
network you do not have time to stop, wait just a moment, I 
have to do a validity check to find out who owns the copyright 
on Moby Dick.
    So we have to be very cautious now about the notion of 
enforcement in the presence of such rapidly growing huge scale, 
and so our mechanisms cannot be to capture all of the 
information there is to know about everything in the network 
and record it as an audit trail in case something bad happens. 
I think we need to do more or less what I believe Mr. Schneier 
was suggesting, is find a way to alarm conditions that are 
visibly bad, or in fact we have to wait until somebody says, 
there is fraud out there, or I was treated improperly, and that 
is the alarm, and then we try to go into action.
    Senator Wyden. Let me recognize Senator Nelson.
    Senator Nelson. Mr. Chairman, in his statement Dr. Cerf has 
said that tools for combatting criminal use of online systems 
may erode privacy in severe ways during the process of trying 
to assist law enforcement. Have you already discussed his 
examples of some of those tools?
    Senator Wyden. Not directly, Senator Nelson. I think it is 
a very good question. We have sort of tangentially talked about 
the relationship of privacy and security, but Dr. Cerf, I think 
Senator Nelson's point is a very good one. Do you want to add 
to that?
    Dr. Cerf. Indeed it is, Senator Nelson. It is something 
that all of us worry about. In our zeal to capture the 
criminal, we may put everyone in jail in some sense by 
attempting to lock up our society. I do not think anyone in 
this country wants that.
    We need, though, to have tools available. It is just that 
they have to be applied in a way that was mentioned earlier 
under the rule of law, under appropriate circumstances, with 
the appropriate constraints, and perhaps even more important 
for our system of justice, the data collected has to be 
collected in a way that maintains the chain of evidence, and 
that is a delicate and not so easy matter to preserve, so there 
is, I think, a great deal of care that has to be taken in the 
exercise of those tools, but we need them.
    Senator Nelson. Can you give us an example of some of those 
counterproductive tools?
    Dr. Cerf. One of the most visible and perhaps even 
notorious ones came out of the FBI. It was once called 
Carnivore. It is called DCS-1000, and I happen to believe that, 
properly used, that is a very powerful and suitable tool. In 
fact, it is under better control technically than the classical 
piece of equipment that we all use in the networking world 
called a protocol analyzer, which is something that simply 
swallows every bit that flies across the circuit and analyzes 
it to tell you hat protocols are in use and what packet 
contents there are.
    Those tools are regularly in use for debugging problems, 
and you need them for that, but wholesale application of such a 
tool without the kinds of constraints that I understand have 
been applied to the FBI system would be a terrible invasion of 
privacy.
    Senator Nelson. So would you, then, suggest that aside from 
law enforcement agencies in the commercial world, that we not 
employ those tools?
    Dr. Cerf. No, I would not say we should not employ them. I 
would say that they should be employed, but only under proper 
circumstances, under the authority of a court, for example, in 
the same way that we would do for the older system of wire taps 
in the telephone system.
    Senator Nelson. In your opinion, do the criminal laws need 
revision to give law enforcement updated tools to go after this 
new type of high tech criminal?
    Dr. Cerf. I have to plead incompetence, Senator. I do not 
know the answer to that, and I do not think it would be wise 
for me to answer it and give you bad data. You would get an 
opinion, but it would not be a very well-informed one. Perhaps 
one of my colleagues would be better prepared.
    Mr. Miller. Senator, there is actually a matter that 
addresses directly Dr. Cerf's point that may come before the 
Senate very soon, and that is the Council of Europe Cyber Crime 
Convention, which you may have heard about. About two years 
ago, the Council of Europe, of which the U.S. has an observer 
role, decided to achieve a good purpose, we believe, which is 
to try to develop a convention that would be adopted throughout 
the world for basic criminal laws to enable there to be 
existing laws against various cyber crimes.
    As we know, in the Philippines, at the time that the 
ILOVEYOU virus as initiated, the Philippines did not have on 
its books at that time laws that would enable the Philippines 
Government to prosecute the individuals when they tracked them 
down, and they were able to track them down, but they could not 
do anything with them. The Philippines, to its credit, has 
updated its laws.
    The problem with the cyber crime convention, which has now 
been virtually finalized, it was developed primarily by law 
enforcement, with very little input, very untransparent system, 
very little input by the privacy community, very little input 
by the consumer community, very little input by the business 
community and, as a result, while that treaty has some 
excellent provisions in it, and we still think it is a very 
good idea, there are many privacy groups, virtually all the 
privacy groups I am aware of, and some business groups, and 
some consumer groups, which are uncomfortable with that 
convention.
    Again, it is not to say it is a bad document, but had the 
Council of Europe worked a little more assiduously to be a 
little more inclusive of the stakeholders, they probably could 
have gotten virtually, if not unanimous support for the 
convention, which would have then been brought to you as 
Members of the Senate, and your role as ratifiers of treaties, 
and to other bodies, legislatures around the world, a document 
that could have become a standard.
    Because I think the answer to your last question is, well, 
we do not believe the U.S. laws by and large need to be 
changed. There are a lot of other countries around the world 
where there are huge holes in the abilities of those countries 
to prosecute cyber criminals, and most of the work to be done 
is not necessarily in the U.S. Code, or in State laws. Most of 
the work to be done is around the world.
    Dr. Cerf. Two very quick points. One of them is that the 
cyber crime legislation appears to run afoul of cyber privacy 
legislation in Europe, and I do not know that they have 
resolved that yet.
    The second observation goes with something Harris was just 
saying. Everything that you do, every law you pass associated 
with cyber-related matters plainly has jurisdiction in the 
continental United States and Hawaii and other protectorates, 
but it does not have jurisdiction in other countries. For this 
to work on a global scale, there will have to be some degree of 
collaboration and work to make the laws at the national 
boundary somehow be at least compatible so that law enforcement 
can work across international boundaries.
    This is not new. It is just, perhaps, made more visible, 
more highlighted by the global nature of the Internet.
    Mr. Schneier. Can I address that question?
    Senator Wyden. Absolutely.
    Mr. Schneier. Fundamentally, the tools we are talking 
about, the tools are to try to balance security versus liberty, 
and a lot of these tools that come in question are tools that 
basically take the approach of very broad surveillance in the 
event at some future time that becomes relevant, so on the Net 
it might be sucking down every packet looking for copyright 
violations, or photographing every person going into the Super 
Bowl in case they had committed a crime.
    In the real world there are controls. I mean, I do not 
believe police are allowed to stop every car and run the 
license plates. There needs to be some probable cause, so these 
tools that are potentially dangerous are the ones that do not 
make the minimization efforts that violate everybody's liberty 
in an effort to catch a few criminals.
    Now, there are countries that do this. This is the rule of 
law in many countries, and we get to decide what our balance 
is. What is due process? When is search allowed? When is 
seizure allowed? This august city has spent 200 years figuring 
out how this works, and my hope is you guys continue to do so, 
because they are not easy questions, but that is where all of 
these tools go in.
    To your question about laws, I actually do not believe we 
need new laws. We need old laws applied cleanly to the new 
environment, because the crimes are the same, the people are 
the same, the environment is the same. The techniques are 
different, but you do not want the same crime to be suddenly 
much worse or much better if a computer is used. Fraud is 
fraud, theft is theft, and just because the tool is different 
does not mean the ramifications should change, and I made this 
one before you arrived.
    We are coming to an age where technology is changing so 
fast that we cannot make laws that only apply to a certain 
technology. We are going to forever be playing catch-up. The 
criminals will work faster than Washington, so we need laws 
that will stay ahead.
    Senator Nelson. Generally, I would agree with you, but in 
the late seventies that was not the case. When the computer was 
just coming to be ubiquitous, the prosecutors really did not 
have the tools at that time. I say this simply from my own 
experience of having the first computer crimes law in the 
country in 1978, in the State of Florida, and then having to 
come up here after the election of 1978. It took me a few 
years, but we finally got the computer crimes law into the 
Federal code.
    But, I would probably agree with you on your assessment now 
that there is enough basic criminal law that you can apply to 
these new high tech crimes.
    Mr. Chairman, thank you very much for having a very 
stimulating discussion.
    Senator Wyden. Senator Nelson, thank you, and again we are 
so pleased you are going to be on this Subcommittee.
    Gentlemen, just a few other questions. One that I want to 
examine is the impact of technological developments on security 
issues. Let us start here with the area of always-on broadband 
connectivity. I am interested in your thoughts about whether 
this is going to cause additional security problems. Again, I 
think part of this whole debate also gets you into Internet-
enabled phones and other wireless Internet devices.
    Let us start with some of the technological developments 
such as always-on connectivity, and the new phones. Dr. Cerf.
    Dr. Cerf. Well, one of the things we have already seen is 
the invention of something that was not part of the original 
Internet architecture, a thing called a ``firewall.'' It is 
intended to shield things that are on the inside from the rest 
of the unwashed public Internet, and for many years, at least 
in Internet terms, firewalls were typically applied to the host 
computers of the network, the ones that supplied the services, 
but now we are starting to find that individuals with their 
personal computers that are on all the time connected by 
digital subscriber loops, or cable modems or the like, need to 
have firewalls to protect that computer, or maybe an ensemble 
of computers that happen to be in use at home, or in a small 
office, from the same kinds of attacks that the host computers 
were subject to in the past.
    But what has happened is that as the functionality 
available to the consumer increases, then the risk that it will 
be damaged or interfered with or modified goes up. There is 
more risk associated with the more functional capability that 
we now have in these small laptops and personal digital 
assistants.
    I do not know that we need to have firewalls built into our 
cell phones exactly, but many of us who look at these small 
devices believe that they need to be created and programmed 
with the idea in mind that they, too, might be the target of 
abuse as opposed to simply being a consumer device that is at 
the edge and no one would ever look at it, so firewalls, and 
integration of firewall technology into these devices I think 
is going to be much more common.
    Senator Wyden. Mr. Miller.
    Mr. Miller. What he said.
    Senator Wyden. Mr. Schneier.
    Mr. Schneier. My rule of thumb is, if it is a new thing, it 
increases in security. Always-on connections are less secure 
than dial-up connections, so when we are talking about always 
on, or Napster, and other pier to pier, when you are talking 
about Internet telephony, all of this functionality increases 
the complexity and will increase in security, and that is just 
the nature of the beast, and the question is, how do we deal 
with this?
    In some ways we cannot. A lot of these solutions, and these 
are denial of service attacks, problems, these are the viruses 
and worms problems, a lot of these solutions are sort of, the 
draining the swamp variety. We are going to fix the problem by 
fixing all of these--how many hosts were there? You gave a 
number, so many millions of hosts.
    The problem is, the swampland is being created so fast that 
we cannot keep up with it. My mother got a computer, and now 
all of her friends have one. I will put up a personal firewall. 
I cannot get her to.
    So yes, things like always-on connections do increase the 
risk, and they increase the risks in areas you do not realize. 
If you remember last February, February of 2000, the big denial 
of service hacks, the first ones that made the newspaper 
against CNN and eBay and Amazon and a bunch of other Web sites, 
what we learned very graphically is that if you are the 
security manager at eBay, your security depends on the security 
of the University of California at Santa Barbara.
    Because it is one big Net, your security depends on other 
people you cannot control. Right now, the security of your 
computers, the Senate computers, depends on all of those 
always-on connections. It depends on people like my mother, and 
that is pretty scary.
    Dr. Cerf. In fact, Bruce, I hope we can make it not the 
case that we have to rely on everyone, those billions, some 
day, of people on the Net, and we have to do that in several 
different ways. We have to make it easier for people to have 
protection. That means building it in as not an afterthought or 
an add-on, but as part of the design.
    An example that you brought up, Bruce, was what is called 
peer-to-peer exchanges. Napster is an example of that, and 
Instant Messaging is another example. People like to share 
things with each other, and the act of sharing means you have 
to be open to exchange information. You have to allow another 
party sort of into your inner sanctum.
    It would be nice if we had good tools for authenticating 
those other parties before we opened the door and allowed the 
peer-to-peer exchanges to happen. We have got pretty good 
assurance that the party at the other end is the one that we 
want, and this lets me bring up something that has caused me 
great difficulty in legislation.
    There was a spate of digital signature acts passed both at 
the State and at the Federal level, and on the one side it is 
wonderful, because it means people are waking up to the need 
for this kind of legislation to make digital signatures a real 
thing in the eyes of the law.
    The dismay comes from what appears to be an absence of any 
standards as to how that digital signature was bound to any 
individual. What identification did I ask for before I 
generated the digital signature certificate and associated it 
with that person, and so far as I can tell, either you have no 
common standards at all, and sometimes there is nothing even 
said about validation, and so someone could show up and hand me 
a thing that is digitally signed, and I have not the foggiest 
idea whether I can rely on it to mean anything.
    So as a kind of small flag-waving exercise, it is very 
important, if we are going to pass legislation like that, to 
try to take care of all aspects of it, including the part that 
says, and by the way, here is how we will rate the quality of 
the validation.
    Senator Wyden. As the Democratic sponsor of the digital 
signatures law, I both agree in part and disagree as well. 
Certainly, we left some of the details to be filled in. We did 
it largely because technology companies, consumers, and others 
said, let us make sure that there is a wide enough berth so as 
to not freeze innovation. I think this is going to be one of 
the biggest challenges, as we look at these legislative issues 
down the road.
    We are trying to be very sensitive to your point about 
doing no harm. I think you will hear that from one legislator 
after another, Democratic and Republican when you make that a 
particular focus. In this case, the consumers wanted the ease 
of a digital John Hancock, and the insurance companies and 
financial services company wanted to simplify their records.
    There was a lot of interest in this issue. There was also a 
feeling that, (a) even if you left some of the details that you 
are discussing blank, you would not do any harm, and (b) you 
would have a chance to flesh it out. What you have told us is 
that you may end up doing some harm as well with people not 
being sensitive to all of the ramifications. Suffice it to say, 
by the time you get back home my staff will be on the phone to 
you about the digital signatures law.
    Mr. Schneier.
    Mr. Schneier. A couple of points. The idea about 
authentication brings up some of the main issues. If we decide 
that authentication is important, we give up anonymity, which 
is a right that our country believes in, so every time we make 
decisions we have to balance them with what it is we are trying 
to do.
    This is back to my point that we should try to be 
technologically variant. We should try to figure out what it is 
we want, and then apply it to the technology.
    You asked about the security of computer telephony. I did 
not bring it with me, but actually I finished an essay on 
computer telephony and security. I would be happy to send it to 
you and, since it came up, I also have any number of essays on 
digital signatures and authentifications, and the good, bad, 
and the ugly, so I am willing to inundate you or the record, if 
it is possible, with paper.
    Senator Wyden. We would very much like both your general 
essays and the ones on digital signatures.
    Senator Wyden. Mr. Miller, just one point, because you 
touched on this issue earlier--I gather your companies are 
going to put much more emphasis on security issues in the 
future. I saw one study in preparing for the hearing that 
indicated that even though we are going to see $65 billion this 
year in online purchases, only 4/10ths of 1 percent of a 
company's revenue is now dedicated to information security. To 
your credit, you have indicated several times today that this 
is going to be an area that your members and businesses 
generally try to turn around. I think it is clear that is 
important.
    Mr. Miller. Well, again, Mr. Chairman, that is a very 
important point, but it is not just the Internet companies, it 
is the users of the Internet, and that is where we see a 
tremendous variation. We see industries like the financial 
services industry, which of course is extremely sensitive to 
security and reliability, and is heavily regulated by 
Government regulators, which devotes upwards of 10 percent of 
its IT budget each year to security, so whenever they are 
spending $1,000 on computers, whether it is hardware, software, 
whatever it is, $100 of that is going to be related to 
security, but there are plenty of other industries that are 
spending less than 1 percent, and so they are just not focusing 
so much on it. They have not bought into it.
    A lot of it has to do with best practices in industry, a 
lot of it has to do with the insurance industry, which Mr. 
Schneier and I have raised, but a lot of it just has to do with 
volume, Mr. Chairman.
    As you know, it was in the lead of Y2K, and back in 1995, 
we worked with you very closely, we held many Y2K hearings, and 
meetings in very small phone booths. We just could not get the 
executive level buy-in that we needed. We could not get the 
CEO's. We could not get Governors. We could not get mayors, we 
could not get the top level of Government, and through people 
like you speaking out, political leaders and business leaders, 
we eventually did get that kind of level of buy-in.
    We need to get the same thing here. Again, it is not 
enough. It is the CEO's of IT companies. It has to be the CEO's 
of retail stores, the CEO's of manufacturing firms, the CEO's 
of pharmaceutical firms, the CEO's of energy firms saying 
information security is important, and I think that that again 
is going to be reflected even upward to the President of the 
United States.
    And I think President Bush, like his predecessor, has put a 
lot of attention on this. We are seeing a new stage in 
development under President Bush, where he is trying to pull 
this together in a much more coordinated fashion, and I am 
hoping that will send the right signal to the CEO's and to the 
political leaders around the country.
    Senator Wyden. Before we wrap up, gentlemen, I want to 
recognize in the audience--I think they are still here--the two 
representatives of the Tunisian Digital Certification Agency. 
Where are they?
    [A show of hands.]
    Senator Wyden. We are glad you are here, and look forward 
very much to working with your Government on these issues that 
are worldwide in nature.
    Gentlemen, this has been an excellent panel. It is exactly 
what I hoped to have in terms of our first hearing of this 
Subcommittee, and suffice it to say, we have a lot to do.
    I deliberately steered clear of some of the articles and 
the quotes of a pretty alarming nature that have been written 
on this subject. There are various people who are talking about 
Internet Chernobyls, claiming that we are living right on the 
edge and the like. I think a point that Mr. Schneier has made 
both today and in his writing is that people talk very often 
about those problems offline, as well. We are not seeing mass 
murderers every single day, fortunately, offline, because there 
are precautions being taken in that regard. All three of you 
have made it clear today that you want to be part of doing that 
online as well.
    This is heavy lifting. It is, as you all have said, a 
tremendous challenge, because we all love the vibrant, open, 
convenient nature of the Internet. The ability to get all of 
this information so quickly, and to do what would literally 
have taken weeks in the past, is an exhilarating, exciting 
aspect of our lives today. At the same time, we all want the 
maximum amount of security.
    I have found this to be very helpful. You have given us 
excellent testimony. We are going to keep the hearing record 
open for two weeks. I think some of my colleagues may want to 
ask you questions in writing. Please know that as someone who 
has really tried to focus on these issues here in the U.S. 
Senate, I think it has been very, very helpful to be able to 
have this at a time when clearly the public and private sector 
need to be more involved, and Mr. Miller has indicated that 
that is going to be the case. With your leadership, Dr. Cerf 
and Mr. Schneier, in terms of keeping us up on the state-of-
the-art, so to speak, I think that Congress is going to be 
anxious to work with the private sector to address these 
issues. Unless you all have anything further, we will adjourn 
at this time.
    Gentlemen, anything further?
    Dr. Cerf. Nothing from me, Mr. Chairman.
    Senator Wyden. The Subcommittee is adjourned.
    [Whereupon, at 2:50 p.m., the Subcommittee adjourned.]

                            A P P E N D I X

            Prepared Statement of Dave McCurdy, President, 
                     Electronic Industries Alliance

    Chairman Wyden, Senator Allen, members of the Subcommittee on 
Science, Technology and Space, I appreciate the opportunity to submit 
testimony today on behalf of the Electronic Industries Alliance. I 
thank the Chairman for holding today's hearing on Internet security. 
There are few issues that are of more importance to the 2,300 member 
companies of EIA.
    The Internet has become indispensable to the way we do business. 
The Internet empowers organizations to conduct e-commerce, provide 
better customer service, collaborate with partners, reduce 
communications costs, improve internal communication, and access 
information quickly.
    In the rush to benefit from the Internet, organizations often 
overlook significant risks. For example, the engineering practices and 
technology used by many system providers do not produce systems that 
are immune to attack. Most network and system operators do not have the 
resources and technical expertise to defend attacks and minimize 
damage. Policy and law in cyberspace lag behind the pace of change. And 
lastly, security practices are underdeveloped, poorly disseminated and 
erratically followed.
    For the first time, intruders are developing techniques to harness 
the power of hundreds of thousands of vulnerable systems on the 
Internet. Using what are called distributed-system attack tools, 
intruders can involve a large number of sites simultaneously, focusing 
all of them to attack one or more victim hosts or networks. The 
sophisticated developers of intruder programs package their tools into 
user-friendly forms and make them widely available. As a result, even 
unsophisticated users can use them. Subsequently, serious attackers 
have a pool of technology they can use and mature to launch damaging 
attacks and to effectively disguise the source of their activities.
    Attack technology is developing in an open source environment and 
is evolving rapidly. Technology experts and users are improving their 
ability to react to emerging problems, but we are behind. Significant 
damage to our systems and infrastructure can occur before effective 
defenses can be implemented. As long as our strategies are reactionary, 
this trend will worsen.
    Our dependence on the Internet and the increased prevalence of 
attacks have created a true challenge for policymakers. As policymakers 
contemplate how to best protect the Internet and try to ascertain the 
proper role of government on the Internet, the reality remains: as a 
rule, technology has exponentially outpaced the establishment of sound 
policy.
    As a result, it is incumbent upon the business community to take 
the lead in providing answers to Internet security. Similar to the Y2K 
crisis, only when our corporate boardrooms recognize their fiduciary 
responsibility to provide secure systems that Internet security will be 
addressed adequately.
    Relatedly, the Electronics Industry Alliance recently formed the 
Internet Security Alliance (ISA) in conjunction with Carnegie Mellon 
University's CERT Coordination Center and a cross-sector of private 
companies including NASDAQ, Mellon Financial and AIG. The Alliance is 
an industry-led, global, cross-sector network focused on providing 
solutions to the challenges of the Internet economy. The mission of ISA 
is to bring Internet security to the forefront in corporate boardrooms 
worldwide.
Current Internet Security Policy
    The control of U.S. cybercrime/cybersecurity policy has 
traditionally been viewed as an issue for the law enforcement and 
national defense communities--not an economic policy issue. Solutions 
have been expressed in terms of criminal sanctions, counter-terrorism 
efforts and law enforcement training rather than the prevention managed 
by the users of the information assets, like businesses and 
individuals.
    However, law enforcement and national security communities do not 
have all the answers. In addition to leadership from private industry, 
the following goals need to be met in any national policy:

  <bullet> A National strategy from the President after consultation 
        with leadership of constituencies for coordinated responses to 
        threats and attacks, like those developed for Y2K including:

    <bullet> Establishment of empowered organizations for sharing 
            information about cyber-threats, attacks and remedies such 
            as the Internet Security Alliance, the sectoral ISACs, and 
            similar government and international groups

  <bullet> Incentives for industrial and government institutions to 
        adopt top-down policies of institutional security--including 
        information technology/network security--that include:

    <bullet> Clear designation of responsibility/delegation from CEO

    <bullet> Creation of risk management plan

    <bullet> Investments in employee enculturation and user education

    <bullet> Establishment of best practices regarding high value/high 
            risk environments in information technology, for example:

      <bullet> Establishment of organizational CIO

      <bullet> Employee education on IT security practices

      <bullet> Deployment of best practices technologies

        <bullet> Firewalls

        <bullet> Antiviral software

        <bullet> PKI authentication/encryption for e-mail/Internet

      <bullet> In government, necessary training and funding for these 
            types of programs.
What we need to avoid in establishing a national policy:
    New technology-specific criminal statutes that will result in the 
hobbling of vendor industries and slowing of deployment of leading edge 
technologies to the mass of internet users.
Where can the private sector help?
    Organizations must search for an industry-led, global, cross-sector 
network focused on providing solutions to the challenges of the 
Internet Economy. We are at risk, and the business community must make 
it a leadership priority. The following are examples of what the 
private sector should be doing:
    Information Sharing
          Maintaining an adequate level of security in this dynamic 
        environment is a challenge, especially with new vulnerabilities 
        being discovered daily and attack technology evolving rapidly 
        in an open-source environment. To help organizations stay 
        current with vulnerabilities and emerging threats the private 
        sector must concentrate on providing the following:

    <bullet> Vulnerability catalog: a complete record of past 
            vulnerability reports. New entries would be added to the 
            catalog as they were reported.

    <bullet> Technical threat alerts: in the form of ``special 
            communications'' provide early warning of newly discovered 
            security threats and are updated as analysis activities 
            uncover additional information. Ranging from alerts on 
            newly discovered packages of malicious code, such as 
            viruses and trojan horses, to in-depth analysis reports of 
            attack methods and tools, these reports would help 
            organizations defend against new threats and associated 
            attack technology.

    <bullet> Member information exchange: augmenting the basic services 
            listed above, an organization would have to develop an 
            automated information sharing mechanism that allows 
            business and individuals to anonymously report 
            vulnerability, threat, and other security information that 
            they are willing to share with other secure channels.

    <bullet> Threat analysis reports: today the great majority of 
            Internet security incidents are conducted by unknown 
            perpetrators who act with unknown motivations to achieve 
            unknown goals. Managing security risks in the long-term 
            will require a better understanding of the perpetrators and 
            the economic, political and social issues that drive them.
    Best Practices/Standards
          Effective management of information security risks requires 
        that organizations adopt a wide range of security practices. 
        From basic physical security controls that prevent unauthorized 
        access to computing hardware, to user-focused practices on 
        password selection, to highly-detailed system administration 
        practices focused on configuration and vulnerability 
        management, these practices help organizations reduce their 
        vulnerability to attacks from both outsiders and insiders.

    <bullet> Practices catalog: beginning with existing practice 
            collections and standards, and in collaboration with any 
            participating companies an organization must develop a 
            catalog of practices that span the full range of activities 
            that must be addressed when developing an effective risk 
            management program. The catalog will contain high-level 
            descriptions of the required practices and should be made 
            publicly available
    Security Tools
          While a sizeable commercial marketplace has developed for 
        hardware and software tools that can be used to enhance an 
        organization's security and a variety of tools can now be 
        purchased, comprehensive tool sets are lacking. To fill the 
        gaps, organizations build their own or find and evaluate public 
        domain tools--a time consuming and expensive activity. An 
        organization would have to establish a tools exchange: a 
        restricted access repository where network administrators only 
        can exchange special purpose tools they have created as well as 
        information about, and evaluation of, public domain tools 
        available over the Internet.
    Policy Development
          While there are many things an organization can do to enhance 
        its security, some issues require broad action. For example, 
        overall security could be improved through increased 
        information sharing between industry and government, but FOIA 
        (Freedom Of Information Act) regulations deter companies from 
        sharing sensitive information with the government. Other issues 
        like privacy and the proposed HIPPA legislation could also 
        affect network security. An organization needs to identify 
        these overarching issues and work with the appropriate industry 
        and government organizations to advocate policy that 
        effectively addresses the issues.
Other Critical Areas
    The current state of Internet security is the result of many 
additional factors, such as the ones listed below. A change in any one 
of these can change the level of Internet security and survivability.

  <bullet> Enhanced incident response capabilities--The incident 
        response community has handled most incidents well, but is now 
        being strained beyond its capacity. In the future, we can 
        expect to see multiple broad-based attacks launched at the 
        Internet at the same time. With its limited resources, the 
        response community will fragment, dividing its attention across 
        the problems, thereby slowing progress on each incident.

  <bullet> The number of directly connected homes, schools, libraries 
        and other venues without trained system administration and 
        security staff is rapidly increasing. These ``always-on, 
        rarely-protected'' systems allow attackers to continue to add 
        new systems to their arsenal of captured weapons.

  <bullet> The problem is the fact that the demand for skilled system 
        administrators far exceeds the supply.

  <bullet> Internet sites have become so interconnected and intruder 
        tools so effective that the security of any site depends, in 
        part, on the security of all other sites on the Internet.

  <bullet> The difficulty of criminal investigation of cybercrime 
        coupled with the complexity of international law mean that 
        successful apprehension and prosecution of computer criminals 
        is unlikely, and thus little deterrent value is realized.

  <bullet> As we face the complex and rapidly changing world of the 
        Internet, comprehensive solutions are lacking. There is 
        increased reliance on ``silver bullet'' solutions, such as 
        firewalls and encryption. The organizations that have applied a 
        ``silver bullet'' are lulled into a false sense of security and 
        become less vigilant. Solutions must be combined, and the 
        security situation must be constantly monitored as technology 
        changes and new exploitation techniques are discovered.

  <bullet> There is little evidence of improvement in the security 
        features of most products. Developers are not devoting 
        sufficient effort to apply lessons learned about the sources of 
        vulnerabilities. Until their customers demand products that are 
        more secure, the situation is unlikely to change.

  <bullet> Engineering for ease of use is not being matched by 
        engineering for ease of secure administration. Today's software 
        products, workstations, and personal computers bring the power 
        of the computer to increasing numbers of people who use that 
        power to perform their work more efficiently and effectively. 
        Products are so easy to use that people with little technical 
        knowledge or skill can install and operate them on their 
        desktop computers. Unfortunately, it is difficult to configure 
        and operate many of these products securely. This gap leads to 
        increasing numbers of vulnerable systems.
Summary
    While it is important to react to crisis situations when they 
occur, it is just as important to recognize that information assurance 
is a long-term problem. The Internet and other forms of communication 
systems will continue to grow and interconnect.

  <bullet> More and more people and organizations will conduct business 
        and become otherwise dependent on these networks.

  <bullet> More of these organizations and individuals will lack the 
        detailed technical knowledge and skill that is required to 
        effectively protect systems today.

  <bullet> More attackers will look for ways to take advantage of the 
        assets of others or to cause disruption and damage for personal 
        or political gain.

  <bullet> The network and computer technology will evolve and the 
        attack technology will evolve along with it.

  <bullet>  Many information assurance solutions that work today will 
        not work tomorrow.

    Managing the risks that come from this expanded use and dependence 
on information technology requires an evolving strategy that stays 
abreast of changes in technology, changes in the ways we use the 
technology, and changes in the way people attack us through our systems 
and networks. To move forward, we will need to make improvements to 
existing capabilities as well as fundamental changes to the way 
technology is developed, packaged, and used.
    Attacks will happen--they will become more sophisticated as our 
technology becomes more sophisticated. The best defense we can take as 
a nation is to ensure our networks and systems are properly fortified 
against them.
                                 ______
                                 
      Article from Newsweek Business Information, Inc., Newsbytes
                    Brian McWilliams, July 21, 2001
    A glitch in an ActiveX control shipped with Microsoft's Outlook e-
mail program could enable an attacker to take full control of a 
victim's computer, Microsoft confirmed today.
    The flaw, which affects all versions of Outlook, including Outlook 
2002, which Microsoft bundles with its new Office XP suite, lies in an 
ActiveX program named ``Microsoft Outlook View Control,'' according to 
Scott Culp, head of Microsoft's security response center.
    By design, the affected ActiveX control allows Web pages to 
passively display to users the contents of their Outlook inbox. But a 
bug in the program could enable a specially designed Web page or HTML-
based e-mail to run malicious programs on the victim's computer without 
permission.
    The flaw, which was reported to the company Monday by security 
researcher Georgi Guninski, also could allow an attacker to read, 
modify, or delete e-mail in the victim's Outlook inbox, said Culp.
    Guninski published an advisory on the bug today at his Web site 
titled ``The more money I give to Microsoft, the more vulnerable my 
Windows computers are.'' Guninski also posted a harmless demonstration 
of the vulnerability, including source code.
    Culp said Microsoft intends to release a bulletin about the flaw 
later today, and will follow with a patch as soon as possible. To 
protect against attacks in the meantime, the company advises Outlook 
users to disable ActiveX in the Internet Zone of Internet Explorer.
    Outlook users who have applied the Outlook Security Update are not 
vulnerable to the e-mail based vector of attack, nor are Outlook 2002 
users. But the flawed ActiveX control could still expose them to Web-
based exploits, according to Culp.
    While Guninski has uncovered dozens of security vulnerabilities in 
Microsoft's products including Internet Explorer, Outlook, Windows 
Media Player, Word, and Excel, the bug published today is the first he 
has found that affects Office XP, which Microsoft launched in May.
    According to Guninski's advisory, Bulgarian native recently bought 
a copy of Office XP and discovered ``it was quite unpleasant feeling 
giving so much money for so buggy product.''
    Microsoft's Culp told Newsbytes that by publishing the flaw before 
Microsoft had a patch ready, Guninski was only benefiting malicious 
hackers.
    ``Mr. Guninski is a poster child for bad behavior when it comes to 
responsible reporting practices. If your goal is to make the Internet 
more secure, you work with the vendor. Unfortunately, Mr. Guninski has 
put countless of customers at risk for no good reason,'' said Culp.
    The Guninski advisory is at http://www.guninski.com/vv2xp.html.
    Microsoft's security homepage is at http://www.microsoft.com/
technet/itsolutions/security/default.asp.
    Information on disabling ActiveX in Internet Explorer is at http://
users.rcn.com/rms2000/acctroj/howto.htm.
    Reported by Newsbytes, http://www.newsbytes.com.

                                  <all>

</pre></body></html>
